<html>
<title> - H.R. 4283, THE COLLEGE ACCESS AND OPPORTUNITY ACT: INCREASING THE FOCUS ON GRADUATION RATES AND STUDENT OUTCOMES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  H.R. 4283, THE COLLEGE ACCESS AND OPPORTUNITY ACT: INCREASING THE 
            FOCUS ON GRADUATION RATES AND STUDENT OUTCOMES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             July 13, 2004

                               __________

                           Serial No. 108-68

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-792                     WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director

                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 13, 2004....................................     1

Statement of Members:
    Boehner, Hon. John A., Chairman, Committee on Education and 
      the Workforce..............................................     2
        Prepared statement of....................................     4
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan..........................................     5
    Miller, Hon. George, Ranking Member, Committee on Education 
      and the Workforce, prepared statement of...................    55
    Norwood, Hon. Charlie, a Representative in Congress from the 
      State of Georgia, prepared statement of....................    56
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    56

Statement of Witnesses:
    Law, Dr. William, President, Tallahassee Community College, 
      Tallahassee, Florida.......................................    23
        Prepared statement of....................................    24
    Lingenfelter, Dr. Paul, Executive Director, State Higher 
      Education Executive Officers, Denver, Colorado.............    11
        Prepared statement of....................................    12
    Nault, Dr. Richard, Vice President for Student Affairs, Miami 
      University, Oxford, Ohio...................................     7
        Prepared statement of....................................     9
    Wiener, Ross, Policy Director, The Education Trust, 
      Washington, DC.............................................    15
        Prepared statement of....................................    17

Additional materials supplied:
    McGovern, Hon. James P., a Representative in Congress from 
      the State of Massachusetts, letter submitted for the record    46
    Uhlfelder, Steven J., statement submitted for the record.....    57

 
H.R. 4283, THE COLLEGE ACCESS AND OPPORTUNITY ACT: INCREASING THE FOCUS 
                ON GRADUATION RATES AND STUDENT OUTCOMES

                              ----------                              


                         Tuesday, July 13, 2004

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:35 a.m., in 
room 2175, Rayburn House Office Building, Hon. John Boehner 
(Chairman of the Committee) presiding.
    Present: Representatives Boehner, McKeon, Castle, Johnson, 
DeMint, Osborne, Wilson, Cole, Kline, Carter, Blackburn, 
Gingery, Miller, Kildeer, Andrews, Woolsey, McCarthy, Tierney, 
Kind, Wu, Holt, Davis, Grijalva, and Bishop.
    Staff Present: Kevin Frank, Professional Staff Member; 
Alexa Marrero, Press Secretary; Greg Maurer, Coalitions 
Director of Workforce Policy; Catharine Meyer, Legislative 
Assistant; Alison Ream, Professional Staff Member; Deborah L. 
Samantar, Committee Clerk; Kathleen Smith, Professional Staff 
Member; Ellynne Bannon, Minority Legislative Associate/
Education; Tom Kiley, Minority Press Secretary; Ricardo 
Martinez, Minority Legislative Associate/Education; Alex Nock, 
Minority Legislative Associate/Education; and Joe Novotny, 
Minority Legislative Assistant/Education.
    Chairman Boehner. Good morning. The Committee on Education 
and the Workforce will come to order.
    We are holding this hearing today to hear testimony on 
``H.R. 4283, the College Access and Opportunity Act: Increasing 
the Focus on Graduation Rates and Student Outcomes.''
    Under Committee rules, opening statements are limited to 
the Chairman and Ranking Member. Therefore, if other Members 
have statements, they will be included in the hearing record. 
And with that, I ask unanimous consent for the hearing record 
to remain open for 14 days to allow for member statements, and 
other extraneous material referenced during today's hearing, to 
be submitted for the official hearing record.
    Without objection, so ordered.

   STATEMENT OF HON. JOHN A. BOEHNER, CHAIRMAN, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    I want to thank all of you for coming today, especially our 
witnesses, to this hearing on the College Access and 
Opportunity Act.
    Students, parents, and taxpayers today are making a huge 
annual investment in America's colleges and universities. Today 
we're going to look at what they're getting in return. And 
specifically, at student graduation rates and outcomes.
    In May, the Education Trust released an alarming report 
that revealed a major graduation gap at America's colleges and 
universities. The report showed a surprisingly large number of 
students who enter higher education and fail to get a degree. 
And worse, a disproportionate share of these students are low-
income and minority students. We will be hearing from the 
Education Trust, today, on their findings.
    [The report may be found at http://www2.edtrust.org/NR/
rdonlyres/11B4283F-104E-4511-B0CA-1D3023231157/0/highered.pdf]
    This is a particularly important discussion at a critical 
time for American education. As I and Chairman McKeon and 
others have said on many occasions, this is not a routine 
reauthorization of the Higher Education Act.
    Earlier this year, we had Federal Reserve Board Chairman, 
Alan Greenspan, here before the Committee, and he told us 
American workers need to be better trained and better educated, 
if our country is going to remain competitive in the years 
ahead. He urged us to focus on quality and constant improvement 
in education.
    He also reminded us that spending increases don't guarantee 
improvements in academic achievement. And while he didn't get 
into specifics about legislation, his point was clear: the 
current system isn't getting the job done--and the 
reauthorization of the Higher Education Act must involve real 
change.
    Chairman Greenspan's comments were not considered 
controversial at the time he made them; in fact, I don't 
believe that they were even reported in some of the prominent 
education publications.
    But we now see the challenges inherent in his advice. Many 
prominent college lobbying organizations have been quick to 
demand billions of dollars in increased spending from the 
Federal Government, but are reluctant to address questions 
about the quality of education being provided for students and 
families in return.
    The graduation gap, unfortunately, is just the latest in a 
number of troubling signs that America's colleges and 
universities aren't accountable enough to the students that 
they serve.
    With tuition continuing to climb, America's higher 
education consumers are beginning to demand greater 
transparency in everything from the cost of a higher education 
to what they can expect to get out of that education.
    Representative McKeon and I introduced the College Access & 
Opportunity Act to help empower higher education consumers with 
the information they need to make their own best decisions 
about a college or university.
    Institutions are already reporting volumes of information 
to the Department of Education, the problem is that parents and 
students aren't able to use this information. And what we 
propose is to take that information and put it into the hands 
of consumers.
    Now, there are no dramatic new reporting requirements in 
this legislation--frankly, nearly all the new reporting 
requirements that I included would apply only to institutions 
that repeatedly engage in excessive tuition hikes that hurt 
students and their parents. We recognize that when government 
gets more involved, costs go up--not down. Some lobbying 
organizations have described our bill a little differently. 
They oppose the bill, claiming it would expand government 
involvement. The same organizations are demanding additional 
billions of dollars in Federal funding. And what they really 
mean is they want billions more in taxpayer money, but don't 
want to be accountable for how it is used.
    Now, the graduation gap exposed in the Education Trust 
report is a reminder of the dangers of this approach. One of 
our goals for this hearing is to ask why the graduation gap 
exists between minority students and their peers. And to ask 
what steps the higher education community should reasonably be 
expected to take to close that gap.
    Mr. McKeon and I recently introduced a bill that takes some 
modest steps that reflect our thinking on the matter. Some of 
our witnesses have thoughts on this question as well. One of 
them, Dr. Nault, represents Miami University, a school that is 
in my own Congressional District, that has done a better job 
than most in closing the graduation gap.
    Some have expressed concern about the Education Trust 
report, but used it to argue for increased Federal and state 
spending.
    A report released just last week by the State Higher 
Education Executive Officers casts doubt on this argument. The 
report found higher education enrollments nearly doubled from 
1970 to 2003, and during that period, state funding kept pace 
with both enrollment growth and the Consumer Price Index.
    States have faced economic ups and downs and those 33 
years, but they have continued to fund higher education, even 
as the number of students have increased dramatically. So we 
look forward to hearing more about that report today.
    I am a strong supporter of American higher education. Our 
system is the envy of the world. But if we want to keep it that 
way, we can't turn a blind eye to the problems when they 
appear. And the graduation gap is a very real problem, and he 
deserves our attention and the attention of America's colleges 
and universities. And this reauthorization is not about writing 
a bigger check while perpetuating the status quo. This 
reauthorization is an opportunity to expand college access for 
millions of low- and middle-income students.
    I want to thank the witnesses for joining us today, and I 
am hopeful this hearing will give renewed attention to the very 
real problem of the higher education graduation gap. At a time 
when more students than ever are choosing to go to college, 
millions of adults are interested in going back to school, and 
changing technology requires workers to train and re-train to 
compete in a changing marketplace, we should be focused more 
than ever on ensuring that students who pursue a higher 
education get something meaningful in return.
    Addressing the graduation gap and helping students and 
parents gain access to valuable information will help us reach 
our shared goal of strengthening America's higher education 
system.
    [The prepared statement of Chairman Boehner follows:]

  Statement of Hon. John Boehner, Chairman, Education & the Workforce 
                               Committee

    Students, parents, and taxpayers today are making a huge annual 
investment in America's colleges and universities. Today we're going to 
look at what they're getting in return--specifically, at student 
graduation rates and outcomes.
    In May, the Education Trust released an alarming report that 
revealed a major graduation gap at America's colleges and universities. 
The report showed a surprisingly large number of students who enter 
higher education fail to get a degree--and worse, a disproportionate 
share of these students are low-income and minority students. We'll be 
hearing from the Education Trust today on their findings.
    This is a particularly important discussion, at a critical time for 
American education. As I and Chairman McKeon and others have said on 
many occasions, this is not a routine reauthorization of the Higher 
Education Act.
    Earlier this year, Federal Reserve Board Chairman Alan Greenspan 
appeared before this committee, and told us American workers need to be 
better trained and better educated if our country is going to remain 
competitive in the years ahead. He urged us to focus on quality and 
constant improvement in education. He reminded us that spending 
increases don't guarantee improvements in academic achievement. And 
while he didn't get into specifics about legislation, his point was 
clear: the current system isn't getting the job done--and the 
reauthorization of the Higher Education Act must involve real change.
    Chairman Greenspan's comments were not considered controversial at 
the time he made them; in fact, I don't believe they were even reported 
in some of the prominent education publications. But we now see the 
challenges inherent in his advice. Many prominent college lobbying 
organizations have been quick to demand billions in increased spending 
from the federal government, but reluctant to address questions about 
the quality of the education being provided for students and families 
in return.
    The graduation gap is, unfortunately, just the latest in a number 
of troubling signs that America's colleges and universities aren't 
accountable enough to the students they serve. With tuition continuing 
to climb, America's higher education consumers are beginning to demand 
greater transparency in everything from the cost of a higher education 
to what they can expect to get out of that education.
    Rep. McKeon and I introduced the College Access & Opportunity Act 
to help empower higher education consumers with the information they 
need to make their own best decisions about a college or university. 
Institutions are already reporting volumes of information to the 
Department of Education. The problem is that parents and students 
aren't able to use this information. What we propose is to take that 
information and put it into the hands of consumers. There are no 
dramatic new reporting requirements in this legislation--and nearly all 
the new requirements that are included would apply only to institutions 
that repeatedly engage in excessive tuition hikes that hurt parents and 
students. We recognize that when government gets more involved, costs 
go up--not down.
    Some lobbying organizations have described our bill differently. 
They oppose the bill, claiming it would expand government involvement. 
The same organizations are demanding billions in additional federal 
funding. What they really mean is they want billions more in taxpayer 
money, but don't want to be held accountable for how it is used.
    The graduation gap exposed in the Education Trust report is a 
reminder of the dangers of this approach. One of our goals for this 
hearing is to ask why the graduation gap exists between minority 
students and their peers, and to ask what steps the higher education 
community should reasonably be expected to take to close that gap.
    Rep. McKeon and I recently introduced a bill with some modest steps 
that reflect our thinking on the matter. Some of our witnesses have 
thoughts on this question as well. One of them, Dr. Nault, represents 
Miami University (Miami of Ohio), a school in my own congressional 
district that has done a better job than most of closing the graduation 
gap.
    Some have expressed concern about the Education Trust report, but 
used it to argue for increased federal and state spending. A report 
released last week by the State Higher Education Executive Officers 
casts doubt on this argument. The report found higher education 
enrollments nearly doubled from 1970 to 2003, and during that period, 
state funding kept pace both with enrollment growth and the Consumer 
Price Index. States have faced economic ups and downs in those 33 
years, but they have continued to fund higher education, even as the 
number of students has increased dramatically. We look forward to 
hearing more about this report today.
    I'm a strong supporter of American higher education. Our system is 
the envy of the world. But if we want to keep it that way, we can't 
turn a blind eye to its problems when they appear. The graduation gap 
is a very real problem, and it deserves our attention and the attention 
of America's colleges and universities. This reauthorization is not 
about writing a bigger check while perpetuating the status quo. This 
reauthorization is an opportunity to expand college access for millions 
of low and middle-income students.
    I thank the witnesses for joining us today, and I'm hopeful this 
hearing will give renewed attention to the very real problem of the 
higher education graduation gap. At a time when more students than ever 
are choosing to go to college, millions of adults are interested in 
going back to school, and changing technology requires workers to train 
and retrain to compete in a changing marketplace, we should be focused 
more than ever on ensuring students who pursue a higher education get 
something meaningful in return. Addressing the graduation gap and 
helping students and parents gain access to valuable information will 
help us reach our shared goal of strengthening America's higher 
education system.
    I yield now to Mr. Miller for his opening statement.
                                 ______
                                 
    Chairman Boehner. And with that, I am pleased to yield to 
my friend and colleague, the gentleman from California, Mr. 
Miller.
    I am sorry, Mr. Kildee.
    Mr. Kildee. All right.
    Chairman Boehner. And I thank the gentleman for yielding.

STATEMENT OF HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Good morning.
    I join Chairman Boehner in welcoming our witnesses to 
today's hearing. I know that both of us are looking forward to 
your testimony.
    Our focus on graduation rates today is very important and 
very critical. Simply getting into college doesn't guarantee 
success in college. In addition to access our institutions of 
higher education should also be focused on persistence.
    College graduation rates overall should be higher, 
especially for low-income and minority students. Institutions 
of higher education need to challenge themselves to improve 
these rates. Without continued improvement in graduation rates, 
individual students and the public as a whole, are being short 
changed.
    Clearly we do have room for improvement on this issue. 
Unfortunately, the topic of today's hearing has little to do 
with H.R. 4283, the latest bill on higher education. H.R. 4283 
does little to actually improve graduation rates at colleges 
and universities. In fact, I fear that it would harm our 
efforts to increase the number of students who graduate college 
within 6 years.
    Even though we track graduation rates by a 6-year term, I 
remember taking my youngest son to campus, and the president 
said, ``You know, only about 25 percent of our students 
graduate in the traditional 4 years.'' I turned to my son and 
said, ``You're going to be one of those 25 percent.'' He was.
    [Laughter.]
    Mr. Kildee. H.R. 4283 jeopardizes improvements to 
graduation rates by repealing the current low fixed rate 
consolidation loan benefit for students, which I think is very, 
very important. We should not repeal that. It also caps the 
Pell Grant maximum program. It redistributes campus-based aid, 
essentially taking from one needy student to give to another.
    Overall, this legislation simply makes college more 
expensive. I hope that we can find a bipartisan solution to 
give schools the tools they need to improve graduation rates in 
the future.
    As the hearings in this matter and in higher education in 
general continue through the remainder of this Congress and 
next year, I look forward to working with my colleagues to 
craft answers to these important questions.
    As I close, I do want to comment on the recent report by 
the State Higher Education Executive Officers. This report 
claims that state appropriations for higher education have not 
decreased over the past 30 years.
    The report is being used to claim that decreases in state 
appropriations are not to blame for increased tuition. First, I 
can tell you that from experience as a state legislator, and on 
the Appropriations Committee there, and having worked with my 
home state of Michigan for 28 years here in Congress, that the 
level of state appropriations for higher education really 
hasn't kept pace. I would be very interested to find how you 
reach your conclusions.
    In addition, tuition continues to make up a greater share 
of the budget of Michigan's public universities than in the 
1970's. Tuition prices tend to go up when state appropriations 
go down, but tuition doesn't go down when state appropriations 
go back up. It's almost like gasoline prices and the price of a 
barrel of oil. Every time state appropriations go down, tuition 
goes up and stays up.
    Michigan support for higher education has risen and fallen 
with the economic tide of the State. In good times 
appropriation levels have remained constant or risen. However, 
in bad times, there have been sharp cuts including extremely 
tough mid-year cuts.
    I look forward to the hearing testimony on this report. I 
fear its conclusions can and have been misinterpreted, and I 
would like to hear your comments.
    Mr. Chairman, I look forward to our discussion today and 
yield back the balance of my time.
    Chairman Boehner. It's my pleasure to introduce our four 
witnesses today. Our first witness today will be Dr. Richard 
Nault.
    And Dr. Nault currently serves as Vice President of Student 
Affairs for Miami University, which, as I mentioned, is located 
in my district in Oxford, Ohio. In this capacity, Dr. Nault 
helps to develop programs that enhance the intellectual and 
personal development of Miami students.
    Dr. Nault has also served as Associate Vice President for 
Student Affairs, and as Director for the University of Miami's 
Honors program.
    And then we will hear from Dr. Paul Lingenfelter. Dr. 
Lingenfelter has served in his capacity as the Executive 
Director for State Higher Education Executive Officers since 
the year 2000.
    Previously, Dr. Lingenfelter served on the staff of the 
John D. and Catherine T. MacArthur Foundation, where in 1996 he 
was appointed Vice President to establish and lead the 
MacArthur Foundation Program on Human and Community 
Development.
    We will hear then from Mr. Ross Wiener, who has certainly 
been here before. He currently serves as the principal partner 
and Policy Director at the Education Trust, a national 
organization focused on eliminating achievement gaps in public 
education.
    Prior to his position at the Education Trust, Mr. Wiener 
worked in the Civil Rights Division at the U.S. Department of 
Justice, where he twice received the Civil Rights Division's 
Special Achievement Award.
    And then last, we will hear from Dr. William Law. Dr. Law 
serves in his current capacity as president of Tallahassee 
Community College since the year 2002. And prior to his current 
position, Dr. Law, served as the founding president of 
Montgomery College, located in Hargrove, Texas.
    Dr. Law has also served as president of Lincoln Land 
Community College. located in Springfield, Illinois and as Vice 
President for Institutional Program Planning at St. Petersburg 
Junior College in Florida.
    I know you all know about the lights. It's OK, we really 
want to hear what you have to say, just don't get too carried 
away.
    With that, Dr. Nault. Welcome. Relax, I know that you have 
never testified before Congress, but we're pretty easy people 
to get along with.
    [Laughter.]
    Chairman Boehner. You may begin.

  STATEMENT OF DR. RICHARD NAULT, VICE PRESIDENT FOR STUDENT 
            AFFAIRS, MIAMI UNIVERSITY, OXFORD, OHIO

    Dr. Nault. Chairman Boehner, I appreciate the opportunity 
to be here and appreciate your support. I would also like to 
thank Congressman Miller, and to all of the Members of the 
Committee for the opportunity to be here.
    At times, schools and colleges appear to be black boxes. We 
know a great deal about the students who enter and we can say a 
great deal about what students are like when they graduate. But 
we often know surprisingly little about the characteristics and 
practices of universities--what happens inside the box that 
makes a difference in student success.
    The important report from the Education Trust, ``A Matter 
of Degrees,'' begins to illuminate these dynamics. And the 
Trust makes an important point: that some colleges do far 
better than expected given the profiles of their students. And 
the Trust singles out Miami University as a model institution 
in that regard.
    National graduation rates, as the Congressman previously 
mentioned, are figured on a 6-year basis. Miami's graduation 
rate is 81 percent--we are eighth in the Nation among public--
major public universities.
    As the Trust researchers point out, Miami's consistently 
high results cannot be dismissed as merely reflecting our 
students abilities. The median rate for our peer institutions 
that attract the same sorts of students is 68 percent compared 
to our 81 percent graduation rate.
    Now, if you asked me about the reason for this success, I 
would argue that it is attributable to the quality of personal 
education we provide. Or, to put it more simply, we teach.
    Miami's primary mission has always been the education of 
undergraduates. Faculty are expected to be able scholars and 
skilled teachers. But they are expected to teach 
undergraduates. Full-time faculty regularly teach our students, 
including freshman. The percentage of our freshman classes 
taught by full-time faculty is 65 percent. At other 
universities the percentage can drift as low as 26 percent.
    You hear evidence of this commitment to teaching in the 
stories of our students. We asked them once, in a recent 
meeting, we met with a group of students and we asked them what 
is most important about your education experiences here? We 
heard repeatedly, the students told stories of exceptional 
faculty commitment. One student who fell behind because of an 
illness told of a faculty member who sat with her for long 
hours to help bring her up to speed on difficult content.
    Outside researchers studied Miami and have pointed out 
other characteristics of our environment that they argue 
enhances learning. Also our first-year students live in 
residence halls built around an academic theme. Faculty readily 
teach courses related to these themes in those halls. Our 
residence hall directors are trained advisors, and freshman 
make course choices by meeting with someone who knows them 
well.
    And to enable students to make educationally sound and 
cause-effective course choices, Miami has developed a software 
system that allows students to monitor their academic progress 
24 hours a day, 7 days a week. In short, we take teaching 
seriously and we define teaching to include all parts of the 
student experience.
    In Miami, we believe, and I think the Trust touches on this 
theme very well, we have an obligation to ensure that a Miami 
education is assessable to all students, not just the wealthy.
    Last spring, Miami adopted a tuition and scholarship model 
that provides for the same tuition for in-state and out-of-
state students. But with generous scholarships for Ohio 
students that vary according to family need. We are the first 
institution in the country, a public institution, to take this 
approach.
    Under this plan, incoming freshman from Miami this fall 
received $25.5 million in two renewable scholarships. They 
first received the Ohio Resident Scholarship of $5,000 which 
was indexed to state support, and when the state support goes 
up that scholarship will increase. And that is fixed for all 
Ohio freshman. The Ohio Leadership Scholarship vary from $5000 
to $6200, and that's a second scholarship they received, and 
these are based much on need. And these scholarships are 
applied against Miami's tuition of $19,600.
    Now, 40 percent of in-state freshman are paying less this 
fall than they would have under the old tuition model. And, 
another 23 percent are paying the same. And we have seen gains 
in all of the groups that traditionally are under represented 
in our nation's schools. Seventeen percent, for example, of our 
entering first-year students this year are first-generation 
college goers, those whose parents never graduated from 
college.
    Now, I knows states are being forced to make hard choices 
between funding higher education and other social purposes, and 
so we have tried to do what we can with our structure and our 
community to make higher education more affordable.
    And we will continue to work to ensure that students 
graduate with a diploma; that's our bottom line. And that means 
focusing intentionally on the quality of undergraduate teaching 
and learning, focusing on the value we add to student growth, 
and increasing access to Miami education, particularly for 
students who have found the doors to higher education closed in 
the past.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Nault follows:]

  Statement of Dr. Richard Nault, Vice President for Student Affairs, 
                     Miami University, Oxford, Ohio

    On behalf of President Jim Garland and our Board of Trustees, I 
want to thank Chairman John Boehner and Ranking Minority Member George 
Miller and all the members of the Committee on Education and the 
Workforce for the opportunity to testify. It is an honor to be invited 
to talk about Miami University and to describe the practices that help 
a higher percentage of our undergraduates earn their degrees than at 
almost any other public university in the nation.
    First, let me introduce myself. I am Richard Nault, Vice President 
of Student Affairs at Miami University, in Oxford, Ohio.
    At times, schools and colleges appear to be black boxes. We know a 
great deal about the students who enter and we can say a great deal 
about what students are like when they graduate, but we often know 
surprising little about the characteristics and practices of 
universities--what happens inside the box--that make a difference in 
student success.
    The important report from the Education Trust, ``A Matter of 
Degrees: Improving Graduation Rates in Four-Year Colleges and 
Universities,'' begins to illuminate these dynamics. The Trust makes an 
important point: that some colleges do far better than expected given 
the profiles of their students. The Trust emphasizes as well that these 
institutions often do particularly well with populations such as 
students of color, first generation college students, and student 
athletes--groups that often graduate at rates lower than their peers.
    The Trust singles out Miami University as a model institution. We 
were heartened by the recognition, but we also recognize that much of 
our success is attributable to the talent and abilities of our student 
body.
    Miami University is a top-tier public institution that attracts 
superior students from every state in the nation. The average ACT of 
our entering students is nearly 27, compared to the national average of 
21 for all college-bound students.
    National graduation rates are calculated on a six-year basis. 
Miami's graduation rate is 81 percent--eighth in the nation among major 
public universities. Our four-year graduation rate of 66 percent is 
higher even than the national six-year average of 63 percent.
    As the Trust researchers point out, Miami's consistently high 
results cannot be dismissed as merely reflecting our students' 
abilities. The median rate for our peer institutions that attract the 
same sorts of students as we enroll is 68 percent compared to Miami's 
81 percent. Our minority students' graduation rate is 65 percent 
compared to a 47 percent national rate.
    If you asked me about the reason for success, I would argue that it 
is attributable to the quality of personal education we provide. Or, to 
put it simply, we teach.
    We teach, not only in the sense of a skilled professor lecturing in 
the classroom but in our research labs, in our advising, in our 
tutoring support, and in the ways we mentor students outside of class.
    Miami's primary mission has always been the education of 
undergraduates. Faculty are expected to be able scholars and skilled 
teachers. Full-time faculty regularly teach our students, including 
freshmen. The percentage of freshmen classes taught by full-time 
faculty is 65 percent. At other universities that percentage can be as 
low as 26 percent.
    You hear evidence of this commitment to teaching in the stories of 
our students. Late spring semester, our Board of Trustees met with 
student leaders. Board members asked the students to name their most 
important academic experience. Repeatedly, the students told stories of 
exceptional faculty commitment. One student who fell behind because of 
an illness told of a faculty member who met with her for long hours to 
help her understand difficult content. Others told of faculty who 
became partners in research or who captured student interest by the 
intensity and infectiousness of their teaching. Our faculty are 
scholars, but their primary mission is the education of our students.
    Outside researchers have pointed out other characteristics of our 
environment that enhance learning.
    <bullet>  Our first year students live in residence halls built 
around an academic theme. Faculty regularly teach courses related to 
these themes in the residence halls.
    <bullet>  Our residence hall directors are trained academic 
advisers. Freshmen make course selections by meeting with someone who 
knows them well.
    <bullet>  Miami is a place where students take active leadership 
outside the classroom. Miami provides more than 300 students 
organizations, two leadership institutes, and a center to support 
community volunteerism. This sense of involvement outside the classroom 
creates an ethos that encourages students to be active learners in the 
classroom as well.
    <bullet>  Our organizational climate is one of collaboration. We 
ask that all members of the community, whether faculty, staff, 
secretaries, or housekeepers in our residence halls, be partners in 
fostering student learning.
    <bullet>  To enable students to make educationally sound and cost-
effective course choices, Miami has developed a software system that 
allows students to monitor their academic progress 24 hours a day, 
seven days a week.
    In short, we take teaching seriously, and we define teaching to 
include all parts of the student experience. Our graduation rates, we 
believe, reflect the clarity of our mission as a teaching institution 
and reflect the depth of this commitment.
    The authors of the report Documenting Effective Educational 
Practice (Project DEEP) have commented that our climate is one marked 
by ``serious, sustained attention to improvement.'' We are not content 
that our minority students graduate at rates far higher than their 
national peers. Instead, we focus on the lag of these students behind 
their white classmates. On Miami's campus the difference is 16 percent. 
We have initiated several programs to close that gap. The status quo on 
Miami's minority graduation rates, even if better than other colleges 
and universities, is not good enough.
    At Miami, we believe we also have an obligation to ensure that a 
Miami education is accessible to all students, not just the wealthy. 
Our new tuition plan is the most dramatic evidence of this commitment.
    Last spring, Miami adopted a tuition and scholarship model that 
provides for the same tuition for in-state and out-of-state students, 
but with generous scholarships for Ohio students that vary according to 
family need.
    Under this plan, incoming freshmen from Ohio this fall will receive 
$25.5 million in two renewable scholarships. The Ohio Resident 
Scholarship of $5,000 is indexed to state support and fixed for all 
Ohio freshmen, and the Ohio Leader Scholarship varies from $5,000 to 
$6,200 for each student. These scholarships are applied against Miami's 
tuition of $19,600 annually.
    Forty percent of in-state freshmen will be paying less this fall 
than under the old tuition system and another 23 percent will be paying 
about the same. We have seen gains in all of the groups that 
traditionally are underrepresented at our nation's colleges. Seventeen 
percent of our entering freshmen are first-generation college students, 
those whose parents never graduated from college. In addition, the 
percentage of minority students in our incoming class is up 
considerably.
    In an era when states are being forced to make hard choices between 
funding higher education and other public priorities, Miami has taken 
steps to ensure that it will have the income to maintain and improve 
its educational quality while still remaining accessible to the most 
deserving in-state students, regardless of family income.
    We will continue to work toward ensuring that students who enroll 
will leave with a diploma; that means focusing intentionally on the 
quality of undergraduate learning, focusing on the value we add to 
student growth, and increasing access to a Miami education, 
particularly for students who have found the doors to higher education 
closed in the past.
    Attached are appendices containing more information on the 
important issues you are reviewing.
                                 ______
                                 
    [Attachments to Dr. Nault's statement have been retained in 
the Committee's official files.]
    Chairman Boehner. Dr. Lingenfelter.

  STATEMENT OF DR. PAUL E. LINGENFELTER, EXECUTIVE DIRECTOR, 
  STATE HIGHER EDUCATION EXECUTIVE OFFICERS, DENVER, COLORADO

    Dr. Lingenfelter. Thank you, Mr. Chairman and Members of 
the Committee, for the opportunity to testify.
    SHEEO members, Members of my association, work with higher 
education and the states on state government policy for higher 
education. It happens that next week we will celebrate the 50th 
anniversary of the Association. And as I looked back over the 
achievements of higher education, although we--I think you 
appropriately are focused on the challenges facing us. I think 
we have made enormous progress in the last half-century. And I 
want to claim some credit for our members.
    The members of SHEEO understand how important higher 
education is and we are strong advocates of higher education. 
At the same time, we understand that public-policy has to deal 
with multiple priorities and limited resources.
    A great educator, Frank Rhodes, who is President of 
Cornell, once commented that ``higher education is a sea of 
toes, waiting to be stepped on.'' I imagine that you understand 
what he meant, and SHEEO dues too. We step on toes, we get our 
toes stepped on. We try to get the facts straight, recognize 
different perspectives, and not be too sensitive.
    I have been asked to comment on our recent study on State 
Higher Education Finance. I want to mention four major findings 
of the report, and then I will elaborate on them briefly, and 
then turned to graduation rates briefly, and then leave some 
room for questions.
    The main points I would like to emphasize is first, we 
looked over 30 years and found that state support for higher 
education, on a per student basis, kept pace with enrollment 
growth, and with inflation, as measured by the Consumer Price 
Index. That's an enormous achievement. We've got to recognize 
that the Consumer Price Index is not necessarily the best index 
of cost increases in higher education.
    And when I talk about the trends in the last 12 years, from 
1991 to 2003, I will be using the Higher Education Cost 
Adjustment, which is an index that we developed--which I can 
get into if you would like--which we think is a more reasonable 
basis of inflation.
    Second main point is that in the past, the common pattern 
is for state support to lose ground during recessions, and then 
regained ground during economic recovery.
    Third point is above average tuition increases generally 
occur in those recessions, when enrollments go up, and offset 
decreases in state support.
    My last point, and the one that I think deserves, perhaps, 
the most emphasis, is that the variation among the states is 
just enormous. If you want to find an argument for any points 
you want to make, the evidence is there.
    Let me just give you some of the highlights over the past 
dozen years. Nationally, full-time equivalent enrollment grew 
by almost 19 percent. Half of that increase occurred in the 
past 3 years from the year 2001 to 2003. State support per 
student, in constant dollars, fell by 7.3 percent in this dozen 
year period. Interestingly though, it grew more than 15 percent 
in three states, and it fell more than 20 percent in 10 states.
    Actually the enrollment growth was very unevenly 
distributed too. In seven states, enrollments grew more than 40 
percent, and in 15 states it grew less than 10 percent.
    Net tuition, nationally, and by net tuition we mean tuition 
less state and institutional student aid. It grew by 28 percent 
during this period. But in four states it grew by more than 80 
percent. It grew less than inflation in four other states.
    Total support for students, considering both tuition and 
state support, grew by 2 percent, and essentially was constant 
during this 12 year period. However, it grew by more than 20 
percent in five states, it fell by more than 15 percent in five 
states.
    I would like to make one point about tuition that's 
critically important, I think, to emphasize. And that is that a 
1 percent decrease in state support has very different 
implications in a state, depending upon what their tuition rate 
is.
    In California, a 1 percent decrease in state support will 
require a 6 percent increase in tuition to offset that loss of 
revenue.
    In Vermont, New Hampshire, both high tuition states, it 
would take less than 1 percent of a tuition increase to offset 
a decline in state support.
    I see that I need to sum up, so let me make just a couple 
more points.
    The differences among the states, in their economic 
situation and rates of enrollment, in their interests in 
improving and strengthening their higher education system, all 
play an important role in this picture.
    One, graduation rates, I would just like to make a few 
points. First, improving graduation rates is a national 
priority. There's no question about that. You have received 
some testimony about the necessary improvements in our data 
collection systems. Those are important. I think the advantages 
of a unit record system should be seriously considered. A 
number of states have solved the privacy issues and have done a 
good job with that.
    But if we had perfect data, we would still have to improve 
graduation rates. My written testimony has a number of points 
that I think deserves emphasis, and would be happy--
    I am going to stop now, because I'm instructed to buy this 
light. I will be happy to respond to any questions, later on, 
on those issues. Thank you.
    [The prepared statement of Dr. Lingenfelter follows:]

  Statement of Paul E. Lingenfelter, Executive Director, State Higher 
             Education Executive Officers, Denver, Colorado

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to testify. I am Paul Lingenfelter, Executive Director of 
the State Higher Education Executive Officers Association, commonly 
known as SHEEO.
    The main responsibility of SHEEO members is to work with colleges 
and universities and state government to meet state and national goals 
for higher education.
    Our members understand how important higher education is to the 
future of our country. We are strong advocates of higher education. At 
the same time we understand that public policy must deal with multiple 
priorities and limited resources. We work between higher education and 
state government, which is not always a comfortable place to be.
    I am told that a great educator, Frank Rhodes, long President of 
Cornell University, once said that ``higher education is a sea of toes, 
waiting to be stepped on.'' I imagine you know what he meant.
    SHEEOs step on toes, and we get stepped on too. We try to get the 
facts straight, recognize the value of different perspectives, and not 
be too sensitive.
    You have asked me to discuss a recent study by SHEEO, State Higher 
Education Finance, fiscal year 2003, and consider whether the college 
graduation gap and low graduation rates can be attributed to state 
cutbacks in higher education spending.
    The principal focus of the report is state operating support for 
public institutions. The study also has information on state support 
for independent institutions. It primarily examines trends in higher 
education finance from 1991 to 2003, and we took a brief long-term look 
at state funding for higher education since 1970. I'd like to make four 
main points from the study.
    <bullet>  Despite contractions during economic downturns, since 
1970 state support nationally has kept pace with substantial enrollment 
growth and inflation as measured by the CPI. This is an impressive 
achievement when one considers the amount of enrollment growth we have 
experienced, even though the CPI underestimates inflation in the market 
basket of colleges and universities.
    <bullet>  In the past, state support per student has lost ground 
during recession and then regained ground during economic recovery;
    <bullet>  Above average tuition increases generally occur in 
recessions to help finance enrollment growth and offset decreases in 
state support per student; in the past twelve years net tuition per 
student has increased substantially more than state support;
    <bullet>  The situation among individual states varies 
substantially; national generalizations almost never reflect local 
conditions.
    The most dramatic thing in these numbers is not state support or 
inflation; it is enrollment growth. From 1970 to 2003 full time 
equivalent enrollments in public institutions doubled. In the last 
twelve years we added 1.5 million FTE enrollments, an increase of 18.7% 
to reach 9.6 million. Of that growth more than half, 800,000 FTE 
students, has occurred since 2001.
    In recessions three things usually happen: enrollments grow, state 
support declines, and tuition goes up. In 1991 constant dollar state 
support per student was $6,283; it fell to $5,710 by 1993 during the 
downturn of the early 1990s. State support per student then grew to 
$6,546 in 2001, but it dropped to $5,823 in 2003. The difference 
between the peak and valley of constant dollar state support per 
student during the past dozen years was $836, 12.8% of the peak amount.
    Our report examines net tuition revenue, which is the total tuition 
collected, after taking out state and institutional student aid. 
Constant dollar net tuition per FTE was $2,233 in 1991 and it grew 
$617, or 28% to $2,850 by 1998. It has remained essentially at that 
level since; it was at $2,872 in 2003.
    How can this possibly be, given the large tuition increases 
recently reported? Several factors might explain this. First, this 
study reports net tuition--state and institutional aid has offset some 
of the increases. Institutions are probably using more tuition revenues 
for student aid, given enrollment growth and limits on state and 
federal aid programs. Second, I expect that much of the enrollment 
growth has been in community colleges, where tuition tends to be lower. 
Third, the institutions with the largest, headline grabbing percentage 
tuition increases usually have the lowest tuition in real terms.
    The net effect of these changes in the past dozen years has been 
that total educational spending (which we define as state support plus 
net tuition) per FTE has been relatively constant. It was at $8,516 in 
1991, it grew to $9,381 at the peak of 2001, and it decreased to $8,694 
between 2001 and 2003.
    The last, and perhaps most important point, I want to make about 
the findings of this study is that these national generalizations 
conceal enormous variation among the states. Let me give a few examples 
using the 1991 to 2003 time period:
    <bullet>  Nationally FTE enrollment grew 18.7%; seven states grew 
more than 40%, and fifteen grew less than 10%.
    <bullet>  Constant dollar state and local appropriations per FTE 
fell 7.3% nationally; three states had more than a 15% constant dollar 
increase, and ten states had more than a 20% decrease.
    <bullet>  At the national average net tuition pays about 32 % of 
educational costs. In California and Georgia that percentage is about 
14%; in Vermont and New Hampshire it is 60 to 70%. In Vermont a 1% 
decrease in state revenue can be replaced by less than a 1% increase in 
tuition. In California a 1% decrease in state revenue would require a 
6% percent tuition increase to generate equivalent revenue. At the 
national average it would take a 2 % tuition increase to replace a 1% 
decrease in state support.
    <bullet>  Net tuition per student in constant dollars grew 28% 
nationally; in four states it grew by more than 80% and in four states 
it grew less than inflation.
    <bullet>  Total funding per FTE increased 2% nationally; in five 
states it dropped more than 15%, and in five states it increased by 
more than 20%.
    Many different factors explain the variation among the states. 
Enrollments are growing enormously in some states, very little in 
others. Some states are trying to improve the funding and 
competitiveness of their higher education system. Some have created 
substantial new scholarship programs. And some are deliberately working 
to change the balance between state appropriations and tuition; they've 
had low tuition and they need more revenues to finance rapid enrollment 
growth.
    These differences make it difficult to devise a federal policy 
approach that fits the situation of most of the states.
    I should mention one technical point before discussing graduation 
rates. I'm sure you have heard arguments that the Consumer Price Index 
does not reflect what colleges and universities buy. They mostly buy 
the time of well-educated people, whose salaries, like personal incomes 
in general, have grown faster than the CPI. The Higher Education Price 
Index (HEPI) has been proposed as a more appropriate measure of higher 
education costs, but it too has its critics.
    Our study has used a new approach for estimating higher education 
inflation, based on two federally maintained price indexes: the 
Employment Cost Index for White Collar Workers and the Gross National 
Product Implicit Price Deflator. Its measure of inflation generally 
turns out to a bit below the Higher Education Price Index but higher 
than the CPI. We believe it is a reasonable approach.
    Now let me turn to the question of graduation rates and the role of 
finance in graduation rates. SHEEO members strongly believe that 
increasing the rate and speed of successful degree and certificate 
completion is a national priority; it deserves the concentrated 
attention of policy makers and educators.
    I know you have received testimony documenting the ways our data 
collection systems provide misleading, incomplete information on 
graduation rates. A student unit record system would help address that 
concern, and many states have experience with such systems. They have 
found acceptable ways of protecting privacy while providing valuable 
information for educators and policy makers. We would be able to answer 
a number of important education policy questions better and more 
cheaply if we had unit record data systems to track the progress of 
groups of individual students throughout their education.
    But if we had perfect data we would still need to improve 
graduation rates.
    The easy way to increase graduation rates is to compromise on 
quality or increase selectivity by reducing the numbers of students 
admitted to higher education. Neither is acceptable. We need to 
increase quality, and we need to increase participation.
    The right way is to work on all of the factors that delay timely 
graduation or cause students to drop out who can succeed. A few of the 
most important factors include:
    1.  Improving the number of students who take rigorous, college 
prep courses in high school and are well-prepared for college work.
    2.  Providing good academic counseling and coherent, clear pathways 
toward a degree in every college.
    3.  Making sure courses needed for graduation are available.
    4.  Providing greater rewards for engaging, rigorous undergraduate 
teaching.
    5.  Reducing inappropriate loss of credit due to transfer among 
institutions.
    6.  Providing enough student assistance to enable and encourage 
low-income students to limit working hours and take a full time course 
load.
    7.  Providing on-campus work opportunities that keep students 
focused on campus life, rather than on outside distractions.
    8.  Providing incentives and counseling assistance to encourage 
students take a full course load and complete their education in a 
timely fashion.
    9.  Providing support services to non-traditional students whose 
work and family responsibilities can delay or derail their educational 
program.
    Like everything in education, getting better results on graduation 
rates will require collaboration. Everybody involved--students, 
faculty, institutions, policymakers--has to help.
    Many, but not all of the items on this list have fiscal 
implications. Additional money always makes progress easier. But we 
can't wait until there is enough easy money to improve graduation 
rates. In states, in institutions, and in the federal government we 
have to make good decisions about spending priorities for using the 
money we have, and we have to improve the ways we use money to get 
better results.
    Your attention to the issues of cost and graduation rates is 
helpful to higher education and to the states--these issues are 
fundamentally important to the national interest in having a 
competitive workforce and well-educated citizens. Without federally 
required information and such discussions it would be very difficult 
for the nation to focus on these important matters.
    We all have distinctive roles to play in achieving our national 
objectives for higher education. As you consider the re-authorization 
of the Higher Education Act I hope the Congress is able to find ways of 
making even stronger federal contributions that complement and 
strengthen the roles of institutions and the states. It is important 
for us to work well together.
    The Committee staff has indicated that we will have until July 27, 
2004 to submit a more complete statement of written testimony. I 
welcome that opportunity to address any questions that may arise in 
this hearing. It also will give more members of the Association an 
opportunity to provide input. Thank you very much for the opportunity 
to provide testimony.

[GRAPHIC] [TIFF OMITTED] T4792.001

                                 ______
                                 
    Chairman Boehner. Mr. Wiener.

STATEMENT OF ROSS WIENER, POLICY DIRECTOR, THE EDUCATION TRUST, 
                         WASHINGTON, DC

    Mr. Wiener. Thank you, Chairman Boehner and Members of the 
Committee for this opportunity to testify today.
    Since its establishment in 1991, the Education Trust has 
worked to improve the academic success of America's young 
people--especially low-income students and students of color--
from kindergarten through college. As many of you know, we 
recently published a report on college graduation rates. Its 
author, Kevin Carey, is with me here today, and I have brought 
additional copies of the report for Members ofthe Committee.
    Higher education has long been one of the main drivers of 
opportunity, social mobility and economic progress in our 
society. But that tremendous success has allowed us to overlook 
a serious and deep-rooted problem in higher education: overall 
far too many students who enter our higher education system 
fail to earn a degree. Only 63 percent of students who begin 
full-time at a 4-year college get a bachelor's degree within 6 
years. And completion rates are substantially lower for 
minority students and students from low-income families.
    While approximately two-thirds of white freshman and 4-year 
colleges earned a degree within 6 years, fewer than half of 
African-Americans and Latinos do so. There are also significant 
differences in completion rates between students based on 
family income: 77 percent of students from high-income families 
graduate, while only 54 percent of students from low-income 
families graduate. It is important to keep in mind that these 
figures represent outcomes only of those students who began as 
first-time, degree-seeking freshmen--that is, the students who 
are most likely to persist and graduate.
    To put these completion rates into perspective, consider 
this: if current trends continue, over 500,000 students will 
enter college this fall, try to earn a degree, and not succeed. 
At least not within 6 years.
    But, because the number of students entering the nation's 
colleges and universities has been steadily rising, not much 
attention has been paid to these low completion rates. 
Graduation rates among first-time, full-time students in 4-year 
colleges have remained stagnant for decades--we are 
successfully getting more young people to college, but we are 
not getting proportionally any more of them through college.
    These disturbing patterns--have remained stubbornly 
consistent, the consequences of not graduating have changed 
drastically. People with a 4-year degree or higher now earn 
much more relative to high school graduates than they did 30 
years ago. By contrast, those who enroll in college but failed 
to graduate or get an associate degree have made only slight 
gains in income.
    Unless we change this current trend, we will become a 
society that is even more polarized by class distinctions. Only 
7 percent of young people from the poorest families earn a 
bachelor's degree by the time they are 26. Sixty percent of 
young people from our most affluent families earn a college 
degree by the time they are 26. College degrees may be the best 
route out of poverty, but they are a route now for only seven 
of every hundred low-income families.
    Three areas on which Federal policy is focused play 
significant roles in student success: preparation, ability to 
pay, and institutional policies and practices. There are 
important opportunities to significantly improve student 
preparation and student financial aid through reauthorization 
of the Higher Education Act. We have described some options in 
our written testimony and I would be happy to elaborate on any 
of them.
    But while preparation and ability to pay are important, 
they do not tell the whole story. What is becoming increasingly 
clear is the critical role institutions themselves play in 
securing the success of their students.
    How do we know? Because right now, institutions that serve 
similar students, with similar academic backgrounds, and 
similar financial situations, have widely divergent graduation 
rates.
    This is the first year that institutional level graduation 
statistics have been released to the public, disaggregate by 
student gender and race ethnicity. Examining these numbers, we 
find that some institutions stand out even after controlling 
for factors such as institutions size, resources, mission, 
degree programs, and financial and academic backgrounds of 
their entering students.
    Some colleges and universities have much higher graduation 
rates than other very similar institutions. Examples of these 
exceptional institutions encompass a wide range, from Elizabeth 
City State University, a historically black institution in 
North Carolina, to Miami of Ohio, who you have heard from 
earlier today, a highly selective public university, to the 
University of California at Riverside, which serves a highly 
diverse mix of Black, Latino, White, and Asian students.
    These institutions are different in many ways. Their size, 
location, mission, selectivity, and students vary tremendously. 
But they are similar in one fundamental respect: they 
constantly and significantly outperform their peers in 
graduating students.
    This fall, the Education Trust will be making all of this 
data available through and interactive data base on our web 
site. Visitors will be able to select a given institution and 
see how it compares to similar peer institutions in graduating 
students.
    But even as individual institutions have distinguished 
themselves, our higher education system has collectively made 
virtually no progress in improving graduation rates. That must 
change both for the students and for our country. Institutions 
of higher education must be accountable for doing what they can 
do to enable the success of the students they admit.
    States are currently in the best position to create these 
accountability systems. But, it is important that states and 
systems of higher education began to see accountability as a 
responsibility, not a choice. Therefore, Congress should 
require states to put in place an accountability systems for 4-
year colleges and universities.
    I see that my time has run out. I know that there are 
limitations of the data right now, and we can discuss those. We 
would agree with a number of suggestions that have been made to 
the Committee around better record keeping and better data 
systems. Those would help improve again both what we know about 
colleges and universities and they would improve the accuracy 
of accountability determinations.
    But we think it is very clear that the data exists right 
now is highly reliable and sufficient to create the beginnings 
of an accountability systems, particularly, for 4-year 
colleges. Thank you very much.
    [The prepared statement of Mr. Wiener follows:]

    Statement of Ross Wiener, Policy Director, The Education Trust, 
                             Washington, DC

    Thank you for this opportunity to testify regarding college 
graduation rates and their implications for the reauthorization of the 
Higher Education Act. Since its establishment in 1991, The Education 
Trust has worked to improve the academic success of America's young 
people--especially low-income students and students of color--from 
kindergarten through college. As many of you know, the Education Trust 
has recently published a report on this topic by Senior Policy Analyst 
Kevin Carey, who is with me here today, and I have brought additional 
copies of the report for Members of the Committee.
    Higher education in America has been and continues to be a 
tremendous success story. Collectively, our colleges and universities 
are unparalleled, attracting students and scholars from all over the 
world. Higher education has long been one of the main drivers of 
opportunity, social mobility and economic progress in our society. And 
that promise has been supported through federal policy--through tax-
exempt status, establishment of land-grant institutions in the 19th 
Century, the G.I. Bill after World War II, and Pell Grants since 1972. 
Our historical national commitment to education has paid fantastic 
dividends; the United States has long had the best-educated, most 
productive workforce in the world.
    But that tremendous success has allowed us to overlook a serious 
and deep-rooted problem in higher education: far too many students who 
enter our higher education system fail to earn a degree. Overall, only 
63 percent of students who begin full-time at a four-year college get a 
bachelor's degree within six years, according to the U.S. Department of 
Education's Beginning Postsecondary Survey. Graduation rates are even 
worse for BA-bound students who begin in a 2-year college. Moreover, in 
both types of institutions, completion rates are substantially lower 
for minority students and students from low-income families.
    While approximately two-thirds of White freshmen in 4-year colleges 
(66.8%) obtain a degree within six years, fewer than half of African-
Americans (45.7%) and Latinos (47.3%) do so. There are also significant 
differences in completion between students in terms of family income: 
77 percent of students from high-income families graduate, compared to 
only 54 percent for students from low-income families--a 23 percentage 
point difference. It is important to keep in mind that these figures 
represent the outcomes only of students who began as first-time, 
degree-seeking freshmen in 4-year institutions--that is, the students 
who are most likely to persist and graduate.
    To put these completion rates into perspective, consider that in 
fall 1995, over 1.1 million students enrolled as first-time freshmen in 
a four-year college or university. That means that more than 400,000 
students were accepted into baccalaureate-granting institutions 
intending to get a four-year degree, but still had not graduated six 
years later. When we take into account the growth in college enrollment 
since then--first-time freshman enrollment now exceeds 1.4 million 
annually--and consider the additional students who begin their college 
career in community college with the intention of transferring and 
earning a bachelor's degree, we can say this with confidence: if 
current trends continue, over half a million students will enroll in 
college for the first time in fall 2004, try to earn a degree, and not 
succeed (at least, not within six years).
    Because the number of students entering the nation's colleges and 
universities has been rising overall, not much attention has been paid 
to these low completion rates. The percentage of high school graduates 
going on to two-year or four-year colleges and universities increased 
from less than half in 1975 to almost two-thirds in 2001. But 
graduation rates among first-time, full-time students in 4-year 
colleges have remained stagnant for decades--we are successfully 
getting more young people to college, but not getting proportionally 
any more of them through college.
    While these disturbing patterns--low overall graduation rates and 
big gaps between groups--have remained stubbornly consistent, the 
consequences of not graduating have changed drastically. People with a 
four-year degree or higher now earn much more relative to high school 
graduates than they did 30 years ago, and the gap increases with the 
level of the degree. By contrast, those who enroll in college but fail 
to graduate or get an associate degree have made only slight gains.
    Unless we change current trends, we will become a society that is 
even more polarized by class distinctions. Consider this: only 7% of 
young people from the poorest one-quarter of American families earn a 
bachelors degree by age 26, while 60% of young people from the top 
quartile of family income do so. College degrees may be the best route 
out of poverty, but they are a route now for only 7 of every 100 
youngsters born to a low-income family.
    Beyond the dire negative consequences to the young people 
themselves, though, these college completion patterns have worrisome 
implications for our national future--especially as other countries 
emulate, and even surpass, the United States' success in higher 
education access and attainment. In contrast to almost all other 
industrialized nations, the US alone has remained relatively stagnant 
in the percent of working-age citizens with a college degree. Our 
dominance in college graduates is waning just as globalization is 
exerting relentless pressure on the U.S. labor market.
    Higher education has an increasingly important role in our future 
prosperity. As Federal Reserve Chairman Alan Greenspan noted recently: 
``By the time that the United States entered World War II, the median 
level of education for a 17-year old was a high-school diploma--an 
accomplishment that set us apart from other countries...We need to be 
forward-looking in order to adapt our educational system to the 
evolving needs of the economy and the realities of our changing 
society...More broadly, our system of higher education bears an 
important responsibility for ensuring that our workforce is prepared 
for the demands of economic change.''

Preparation, Affordability, Practice: Shared Responsibility in Student 
                                Success

    Three areas on which federally policy is focused play significant 
roles in student success: preparation, ability to pay, and 
institutional policies and practices.

Student Preparation
    Student preparation has a major impact on subsequent success in 
college. A large-scale transcript analysis conducted by the U.S. 
Department of Education revealed that the rigor of a student's high 
school curriculum was the single most significant predictor of college 
success, overriding the significance of race and socioeconomic status. 
Yet, while these patterns are clear in national data, few states have 
truly aligned their requirements and standards for high school students 
with expectations for incoming college freshmen. In practical terms, 
this means that too many high school students proceed through high 
school believing that they are being prepared for postsecondary 
education, only to find they need significant remediation before they 
can take credit-earning courses.
    This lack of clear articulation between K-12 and higher education 
disproportionately impacts low-income students and students of color, 
who are less likely to be enrolled in the college prep curriculum and 
less likely to get clear information on the devastating impact this has 
on their college aspirations: the data is very clear that students who 
need remediation in college are much less likely to graduate.
    Reauthorization of the Higher Education Act provides Congress with 
several opportunities to promote better preparation for college and for 
life. First, Congress should support state efforts to align the 
standards for high school exit with those for beginning post-secondary 
study. With a relatively small investment, Congress could help link K-
12 and higher education data systems which would allow states to 
significantly advance alignment and articulation activities. What 
should states have to do to receive these funds? Quite simple:
    -  K-12 and higher education systems need to agree on common 
definitions of the knowledge and skills required to begin postsecondary 
work.
    -  K-12 systems need to review state standards and course 
requirements required for a high school diploma and develop a process 
to bring them into alignment with the skills and knowledge required to 
begin postsecondary work.
    -  K-12 and higher education together need to agree on common 
assessments for measuring whether students possess the skills they 
need, and a curriculum that prepares students adequately for the 
challenges of postsecondary education.
    -  States willing to make this curriculum the default curriculum 
for all students should receive additional federal financial assistance 
to provide the professional development that will be required.
    In addition, Congress can provide extra encouragement to low-income 
students to prepare for success in postsecondary education by providing 
additional financial aid to low-income students who have completed the 
college prep curriculum.

Money Matters
    Providing financial incentives for students to complete a more 
rigorous college prep curriculum would begin to address another 
contributor to low graduation rates--the cost of attending college. But 
this step alone is by no means sufficient. The financial burden of 
paying for college is a huge barrier for many young people. Low income 
young people are particularly hard hit, because the relative value of 
Pell Grants has diminished by 50% since the late 1970s. Whereas Pell 
Grants used to cover 84% of the average fixed cost at a public, four-
year institution, in 2001-02 they covered only 42% of these costs. It 
is hugely important that you act to restore educational opportunities 
for our most vulnerable young people.
    -  Congress should commit to a five-year trajectory to recoup the 
buying power of Pell Grants.
    Beyond providing more help to low-income students, though, it is 
important for Congress to consider how it might provide stronger 
incentives to colleges to enroll low-income students. As college-going 
increases, colleges often have less incentive to educate more low-
income students. Despite the unique importance of higher education in 
breaking the cycle of poverty for students from low-income families, 
increases in student financial aid over the last ten years--at the 
federal, state, and institutional levels--have disproportionately 
benefited upper-middle and middle-class students. So even as the 
dollars for financial aid have grown, truly low-income students have 
been asked to shoulder more of the burden of paying for college through 
loans. And institutions of higher education should be eligible for 
supplemental financial assistance for enrolling and graduating low-
income students.
    -  Both federal grants to individuals as well federal aid to 
institutions should be designed to better serve the federal priority of 
increasing the access and success of low-income students.
    In addition, the process of simply arranging college financing 
presents a daunting morass of confusing, sometimes duplicative, 
programs. In some instances, the federal government is providing rich 
subsidies to private lenders without commensurate benefits to the low-
income students the programs were established to serve. Indeed, the 
President's budget proposal makes the case that ``significantly lower 
Direct Loan subsidy rates call into question the cost effectiveness of 
the FFEL [guaranteed student loan] program structure, including the 
appropriate level of lender subsidies'' and cites ``evidence of 
significant cost inefficiencies'' in the FFEL program. These subsidies 
should be limited and the savings should be redirected to as need-based 
aid for low-income students.
    -  Congress should eliminate excessive subsidies and directly 
administer a greater portion of federally guaranteed student financial 
assistance, such as has been proposed by Congressmen Petri and Miller.
What Institutions Do Matters, Too
    Preparation and ability to pay are important, but they do not tell 
the whole story. What is becoming increasingly clear is the critical 
role institutions themselves play in securing the success of their 
students. How do we know? Because right now, institutions that serve 
similar students with similar preparation and similar family incomes 
have widely divergent graduation rates. Our recent report focusing on 
this issue revealed that some colleges and universities are doing much 
better than others in graduating their students, even once we account 
for student characteristics.
    This is the first year that institution-level graduation rate 
statistics have been released to the public, disaggregated by student 
gender and race/ethnicity. Examining the numbers closely, we find that 
some institutions stand out--even after controlling for factors such as 
institution size, resources, mission, degree programs, and the 
financial and academic background of their entering students. Some 
colleges and universities have much higher graduation rates than other, 
very similar institutions.
    These exceptional higher education institutions range from 
Elizabeth City State University, a historically Black institution in 
North Carolina whose student body is predominantly low-income, to Miami 
of Ohio, a highly selective public university, to the University of 
California at Riverside, which serves a highly diverse mix of White, 
Black, Asian, and Latino students, to the University of Northern Iowa, 
a mid-sized comprehensive institution.
    These institutions are different in many ways--their size, 
location, mission, selectivity, and students vary tremendously. But 
they're similar in one fundamental respect--they consistently and 
significantly outperform their peers in graduating students.
    And the data reveal that high performance doesn't have to be for 
some students at the expense of others--institutions like East Carolina 
University in North Carolina and Binghamton University in New York 
outperform their peers without gaps in graduation rates between white 
students and students of color. We even know that rapid improvement is 
possible, thanks to the example of the University of Florida, Louisiana 
Tech, and others that have upped graduation rates for five years 
running.
    This newly available data establishes that what institutions do 
makes a very big difference when it comes to student success. This 
fall, the Education Trust will be making all of this data publicly 
available through an interactive database on our website. Visitors to 
our website will be able to select a given institution and see how it 
compares to similar, peer institutions in graduating students. We will 
be happy to provide Members of Congress and their staffs with 
information and analysis from this database.
    Even as individual institutions have distinguished themselves, our 
higher education system has, collectively, made virtually no progress 
in improving graduation rates over the last three decades. That must 
change--both for the students and for our country. Institutions of 
higher education must be accountable for doing what they can to enable 
the success of the students they admit.
    Leaders in many states are beginning to step up to this 
responsibility:
    <bullet>  For example, The University System of Georgia, led by 
Chancellor Tom Meredith, has begun to study the graduation rates of its 
34 colleges and universities, with the aim of setting graduation rate 
goals, both overall and for student subgroups, for which campus 
presidents will be held accountable.
    <bullet>  In Massachusetts, a graduation rate task force has been 
appointed to find out why the number of undergraduate degrees awarded 
by 24 state and community colleges has dropped steadily since 1997, 
particularly in economically depressed areas served by the schools. 
Spurred by upcoming implementation of a new state performance funding 
system, the task force is expected to outline a series of concrete 
recommendations by December.
    <bullet>  And it is no coincidence that two of the unusually high-
performing institutions I mentioned earlier are from North Carolina. 
Some years ago, the UNC system began publishing graduation rates and 
holding campus presidents accountable for these numbers.
    The traditional state role in regulating and funding higher 
education suggests that states are currently in the best position to 
create robust accountability systems that hold institutions 
appropriately responsible for the success of their students. But given 
the national interest in tackling this problem, Congress should ask 
states to design and implement goals and accountability systems for 
higher education access and outcomes. While the quality of currently 
available data and the limited knowledge of best practices advise 
against a uniform system nationally, it is important that states and 
systems of higher education begin to see accountability as a 
responsibility, not a choice.
    -  Congress should require states to put in place an accountability 
system for 4-year colleges and universities.
    States should have broad discretion in designing systems that meet 
the particular needs and characteristics of their institutions, and 
that fit with systems that have already been established. But each 
system should share several common characteristics: (1) accurate, 
publicly available graduation rates that are disaggregated by student 
gender, race/ethnicity, and income status; (2) specific goals for 
improvement at each institution, including both overall improvement and 
closing gaps between groups; and (3) public reporting of institutional 
success in meeting graduation-rate goals. And states should develop 
plans to integrate 2-year institutions into their accountability 
system, once appropriate measure are developed that account for the 
diverse missions those institutions pursue.
    Some states are already well on the way to developing graduation-
rate measures that improve on the federally-collected data, by taking 
into account student mobility between institutions. These states should 
be allowed to use these fuller measures as they implement 
accountability systems. States that have not yet made the investment in 
the data systems they need should use the federally-collected measures 
in the meantime.
    Accountability for higher education should also incorporate 
measures of access and quality of learning, to ensure that increasing 
student completion doesn't come at the expense of academic standards or 
education opportunities for low-income students. Measures of 
institutional success must include both the institution's performance 
in graduating traditionally underserved students, and it's success in 
recruiting and admitting such students. Too often, success in higher 
education is measured in terms of increasing the so-called ``quality'' 
of the students institutions enroll, which can come at the expense of 
serving the students whose need for an accessible, affordable, high-
quality post-secondary education is greatest. Congress must help to 
counterbalance those pressures by recognizing and encouraging those who 
give access and success equal attention.

                   Building Even Better Data Systems

    We recognize that the institutional graduation rate statistics 
currently gathered by the Department of Education aren't perfect, 
because they don't fully account for students who transfer from one 
institution to another. This is less of a problem than is sometimes 
suggested, though. Less than a quarter of beginning 4-year students 
transfer, and only a third of those students who transfer end up 
graduating within six years. As a result, 80% of all students who start 
college at a 4-year institution and earn a B.A. finish where they 
began. The current graduation rate statistics are more than enough to 
know that some institutions are doing much better than others, and we 
should act on that information now.
    But we can and must do better. The U.S. Department of Education 
should be directed to work with states to develop a next generation of 
graduation rate statistics that appropriately account for mobility and 
other factors. Higher education institutions currently submit an array 
of detailed, time-consuming survey forms to the federal government on a 
variety of subjects. All of this data is important, and needs to be 
collected in the future. But by moving to a more streamlined, powerful 
data collection system that allows the tracking of student success at 
multiple higher education institutions, we could increase the 
efficiency and utility of the data collection process while reducing 
the expense in the long run. We can also answer vital questions that 
currently lie beyond the scope of the data system, such as: what are 
the graduation rates of low-income students and students receiving 
federal financial aid? How does the success of students seeking 
different academic majors compare? How successful are institutions in 
graduating students, after taking into account those who transfer?
    Such a system would also give us much more information about the 
pipeline of students between 2-year and 4-year colleges. We currently 
know even less about the success of our community colleges than our 
baccalaureate and graduate institutions, despite the fact that 2-year 
colleges represent a growing sector of higher education, particularly 
for low-income, minority, and non-traditional students. A more 
integrated, powerful data system will change this, providing a more 
clear picture of success across higher education sectors.
    With this new data in hand, Congress can help promote public 
scrutiny of higher education outcomes by disseminating and drawing 
public attention to a free, easy-to-understand, uniformly-comparable 
public information system. Such a system would allow students, parents, 
and policymakers to better understand how different colleges and 
universities compare on crucial performance benchmarks, including 
access, affordability, and graduation rates, as well available 
information regarding academics and safety. Honest, objective, reliable 
information about the success of individual institutions of higher 
education needs to become more easily accessible and this data needs to 
permeate discussions of institutional quality.
    Moving forward, we need to know much more about which institutions 
are doing better, and then we need to learn more about what these 
institutions are doing. Gathering much richer data about student 
progress and success is an important component of any strategy to 
improve outcomes in higher education. Better data will help researchers 
and higher education leaders identify high performers and learn from 
them. There are some promising initiatives underway in this regard, 
such as NSSE, the National Survey of Student Engagement developed at 
Indiana University. NSSE and similar projects are exploring the 
connections between institutional practices and student success. But 
in-depth ``best practices'' studies whose results are transferable from 
one college or university to another are far too rare in higher 
education, in part because there hasn't been enough good data to 
reliably know who the ``high performers'' really are, and in part 
because neither tradition nor policy have created sufficient demand for 
such studies.
    Congress can advance the conversation on both of these issues 
through the HEA reauthorization.
    -  Better data systems should be developed to more accurately 
identify the most successful institutions and research should be 
supported to discern the policies and practices that distinguish these 
institutions from their peers.
    -  To spur interest in the colleges and universities that truly 
stand out in their service to their students, Congress should establish 
a program akin to the Blue Ribbon schools in the K-12 context.
    The federal government should very publicly recognize and reward 
the colleges and universities that are serving the greatest number of 
low-income and minority students and demonstrating the greatest success 
in graduating these students. Our initial research suggests that these 
institutions come from all sectors of post-secondary education, from 
large research universities to small private colleges to minority-
serving institutions. By very publicly identifying the best of the 
best, and rewarding them for their success, Congress could set a 
standard against which all other institutions would be measured.
    Thank you for this opportunity to testify on this important 
subject. I look forward to answering your questions.
                                 ______
                                 
    [An attachment to Mr. Wiener's statement has been retained 
in the Committee's official files.]
    Chairman Boehner. Dr. Law.

    STATEMENT OF DR. WILLIAM D. LAW, PRESIDENT, TALLAHASSEE 
   COMMUNITY COLLEGE, TALLAHASSEE, FLORIDA ON BEHALF OF THE 
           AMERICAN ASSOCIATION OF COMMUNITY COLLEGES

    Dr. Law. Good morning, Chairman Boehner. Ranking Member 
Miller, Members ofthe Committee.
    My name is Dr. William law, and I am President of 
Tallahassee Community College in Florida. I am here today 
representing the American Association of Community Colleges, 
which commends the Committee for convening this hearing to 
address the important issue of student graduation rates.
    Attainment of an associate degree results in significantly 
increased earnings compared to those who only hold a high 
school diploma. It opens up job opportunities and provides 
further educational opportunities, as well. For these reasons 
community colleges place an emphasis on graduation.
    At the same time, we recognize that not all community 
college students will receive a degree. Some student goals will 
be met by attaining a skill certification in fields such as 
information technology or bio-manufacturing, important support 
for local employers. Others will leave school once they have 
been able to get or keep the right job.
    Some students who may have been encouraged to attend 
college by our open door, may have transferred to another 
institution before graduation. And some may have withdrawn 
because they have found their nonacademic responsibilities 
overwhelming, or simply could not finance college.
    We believe that our investment in all of the students is 
worthwhile. Like many other community colleges, Tallahassee 
Community College has an aggressive program designed to 
encourage graduation. We monitor students closely along their 
entire educational course. This begins with a strong 
comprehensive diagnostic testing, strong orientation before 
course selection begins. This early intervention helps us to 
accurately place students often into remedial courses. As 
students move through their program, we intervene intensively. 
If they withdraw from more than one course, the pattern of 
withdrawal correlates highly with persistence.
    Little things matter. At Tallahassee Community College we 
found out that with very little effort, we can put the students 
picture on the class roster. They will get an ID card, we 
simply crosswalk that to our class rosters. Faculty members 
have name and student picture on the first day of classes.
    Tallahassee Community College is also involved with an 
ambitious Lumina Foundation grant targeted at colleges with 
high numbers of minority and/or low income students. The 
grants' goal is to identify the optimal services to help 
students graduate.
    There's a strong emphasis on institutional change, 
integration with existing state policy, and a widespread 
dissemination of results. The American Association of Community 
Colleges also partners with the American Association of State 
Colleges and Universities on a similar Lumina Foundation grant 
called Access to the Baccalaureate Degree.
    Congress too, has a critical role to play in helping 
college students graduate by providing adequate amounts of 
need-based student aid. Federal student aid represents more 
than 70 percent of all aid available, and there is no 
substitute. The growing disparity in graduation rates between 
low income students and more affluent ones is to a large degree 
financial. The relatively low graduation rates of certain 
ethnic minorities reflect their economic status. We urge 
Congress to do its part to help students.
    Mr. Chairman and Members ofthe Committee, let me indicate 
that I have been a president for--I am approaching my 16th year 
as a president, 8 years as a senior vice president. I have 
never had a discussion with a board of trustees that said let's 
raise our graduation rates because we can get more Pell Grant 
support for students. Our focus is in--has always been on the 
lowest tuition rate so that the most students could access our 
systems.
    Let me add that good data on how students progress through 
the higher education system is lacking. Better tracking is 
needed, and we urge Congress to explore this option.
    Congress could also help 2-year and certainly 4-year 
colleges develop more articulation programs, Florida being a 
model in this area. And we would suggest that these 
articulation programs along the lines of legislation introduced 
by Representative Wu, could be very helpful.
    H.R. 4283 does not do as much as it should to enhance 
college graduation. Setting aside whether increased 
authorization ceilings could lead to aid, the bill does not 
support institutions in providing services for at-risk students 
to stay in school.
    I am a firm believer that a community college student who 
says ``I would like to go to college'' is often saying, ``I 
hope I can afford to go to college.'' In fact, the legislation 
would at times reduce ability to help our students through the 
inclusion of the single definition of ``institution of higher 
education.'' For community colleges this is highly important. 
Therefore, we look forward to working with the Committee to 
improve the bill. whether in this year or next year's Congress.
    Thank you for giving me the opportunity to testify, and I'm 
pleased to answer any questions.
    [The prepared statement of Dr. Law follows:]

  Statement of William D. Law, Jr., President, Tallahassee Community 
College, Tallahassee, Florida on Behalf of the American Association of 
                           Community Colleges

    Good morning Chairman Boehner, Ranking Member Miller and Members of 
the Committee. My name is Dr. William Law and I am President of 
Tallahassee Community College in Florida. I am pleased to be here today 
to represent the views of the American Association of Community 
Colleges (AACC) on ``Increasing Graduation Rates and Improving Student 
Outcomes.'' AACC is the national voice for the nation's 1,173 
community, junior and technical colleges.
    Before I begin my testimony, let me provide a few statistics. 
Community colleges enroll more than 6 million credit and 5.5 million 
non-credit students each year. This includes 45.9% of all undergraduate 
African American students in American higher education, and 56% of all 
Hispanic-American students. The colleges enroll 48.6% of all first 
generation college students. We proudly think of ourselves as being the 
``Ellis Island'' of higher education. However, our colleges are 
undergoing a difficult period of sharp budget cuts coupled with 
dramatic enrollment increases. In the last budget cycle, state funding, 
which represents 41% of total revenues, decreased overall by 2.1%. At 
the same time, over the last 3 years, our credit enrollments have 
exploded, by about 20%.
    AACC commends the Education Trust for its Report, ``A Matter of 
Degrees: Improving Graduation Rates in Four-Year Colleges and 
Universities.'' Overall, the report is a balanced and thoughtful 
examination of the causes and consequence of college students not 
completing their studies. We regret the report's inattention to 
community colleges and its general de-emphasis of the value of the 
associate degree. Ignoring our more than six million college students 
is akin to evaluating the U.S. military and neglecting to study the 
Army; but, in general, the report treats a number of complex and 
interlocking issues incisively.
    We note that those community college students who transfer to four-
year colleges on average perform as well or better than students who 
originally enroll at a four-year school. We also note that, before 
conclusions about graduation rates are drawn, better data about them 
needs to be generated. This topic is outside the purview of AACC's 
testimony, but it should be an ongoing focus of the Committee.

            Why Graduation Matters--Why Some Students Don't

    Community colleges fully appreciate the importance of getting 
students to graduate. Attainment of a certificate or associate degree 
results, on average, in significantly greater earnings compared to 
those who hold just a high school diploma. The differential earnings 
are more than $350,000 over a lifetime. Success at a community college 
also creates opportunities for transfer to a four-year college. 
Graduation also results in substantially enhanced self-esteem, as 
anyone who has attended a community college graduation ceremony knows 
viscerally.
    It is commonplace for community college students to leave programs 
before completion because good jobs are readily available, oftentimes 
with the very employers who have helped sponsor a technical training 
program. In fact, many students enroll in our institutions with no 
intention of attaining a degree. With the completion of a few courses 
they may have gotten the skills and competencies they need to get or 
keep a desired job. However, while this behavior may be financially 
instrumental in the short-term, it is not always conducive to a 
student's long-term benefit, because, over time, degree attainment does 
matter. It matters because it provides a helpful credential valuable 
for its own sake and also because it often indicates that a student has 
gained broader skills that can help him or her learn on the job. In 
addition, the possession of an associate or particularly baccalaureate 
degree may ``signal'' to potential employers that, in the absence of 
other information on which to make a hiring decision, the simple 
attainment of a degree suggests that an individual is responsible, 
persistent, and dedicated, and would make a good employee.
    Community colleges recognize that some students will not graduate. 
This occurs for many reasons. One, perhaps not popular in today's 
environment of accountability, is that the broad ``open door'' provided 
for community college students also allows for an easy exit. Community 
colleges have an average tuition of just $1,905. (In contrast, average 
tuition at two year proprietary schools averages $10,619.) The low 
community college price tag is designed to encourage people who 
otherwise might not enroll in higher education to attend, regardless of 
whether substantial student aid is available. Such students include 
recent immigrants with little English proficiency, those needing large 
amounts of remedial coursework, high school drop-outs of long ago, or 
those who simply have been intimidated from staying in the classroom.
    Serving educationally at-risk students is a central part of 
community colleges' mission and we embrace it. Do we consider those 
students who enroll but do not attain a degree ``failures''? As a rule 
we do not, because we know that these students have tangibly benefited 
from the education and training they received at our colleges for 
starters, they earn considerably more, on average, than high school 
graduates. Obviously, these students' economic prospects have been 
enhanced by graduation, but the beauty of the community college is that 
it will be easy for them to enroll if and when they decide they are 
ready for more study.
    In some respects, higher education is a victim of its success in 
dramatically increasing the percentage of high school graduates and 
others now enrolling in postsecondary education. These new students 
tend to be ``non-traditional'' students. By definition, they are older 
than traditional students, and more likely to work, live off campus, 
and have family responsibilities. Common sense and extensive research 
suggest that all these factors make it less likely that these 
individuals will graduate, in comparison to the ``traditional'' 
student. Part-time enrollment is particularly correlated with lack of 
degree attainment, and, of necessity, nearly two-thirds of all 
community college students attend on a part-time basis. In addition, 
more than 80 percent of all community college students work at least 
part-time. Almost 30 percent of full-time students also work full-time. 
For many of these students, their job must come first.
    Often lost in the discussion of institutional graduation rates is a 
focus on individual students. These students are agents their own 
destiny, and know best whether they are committed to doing whatever is 
necessary to graduate from college.

                 Tallahassee Community College Activity

    Tallahassee Community College is dedicated to encouraging college 
completion. Our college has designed and implemented a comprehensive 
system to realize this goal. Students are tracked continuously from 
before the time they begin their coursework, when diagnostic tests are 
administered. If a student begins to show signs of potential failure, 
appropriate intervention is undertaken. We become particularly 
concerned, and actively engaged, when students drop more than one 
course during a term. This pattern is highly correlated with a 
subsequent withdrawal from college. Alternatively, students who do not 
drop courses are extremely likely to persist.
    Also, the Federal Title IV ``standards of satisfactory academic 
progress'' play an important and positive role in focusing our college 
on the educational progress our students are making.
    Some Community College Activities Designed to Foster Graduation

Helping Community College Students Attain the Baccalaureate Through 
        More Seamless Systems
    With important support from state and local government and other 
sources, community colleges across the country are striving to help 
their graduates enroll in four-year colleges. Florida has an elaborate 
common course-numbering system that includes four-year colleges and 
proprietary schools. Courses must undergo an extensive evaluation and 
approval process before they are assigned to a particular category. 
Wyoming, Connecticut, and Colorado also have common course number 
systems. These systems facilitate easy movement between institutions. A 
number of other states have guaranteed articulation between two- to 
four-year colleges.
    State-wide systems such as those just described would be more 
common if institutional ``turf'' considerations did not at times impede 
progress. Transfer is also impeded because generating large-scale, 
cross-institutional cooperative academic efforts is very time-consuming 
and, hence, expensive. Hundreds of man-hours are involved. 
Consequently, institution-by-institution articulation agreements are 
more common. Many examples could be given; two include the direct 
transfer guarantee that Lord Fairfax, and Rappahannock, VA, students 
get to enroll in Mary Washington College, and a similar arrangement 
between the Community College of Baltimore County and the University of 
Baltimore.
    With support from the Lumina Foundation for Education, AACC has 
been pleased to partner with the American Association of State Colleges 
and Universities (AASCU) on the ``Access to the Baccalaureate'' 
Initiative. These two organizations represent the vast majority of 
public postsecondary educational institutions. The 18-month initiative 
is designed to identify and suggest remedies to non-financial barriers 
to attendance and persistence in college, with a focus on enhancing 
transfer between two- and four-year institutions. The final 
recommendations will be mailed to institutions, state systems, and 
policymakers soon. We will provide a copy of the findings to the 
Committee.

Increasing the Graduation Rate of Low-Income Students
    Also with the support of the Lumina Foundation, AACC, along with a 
number of other partners, is in the midst of a major new initiative 
called ``Achieving the Dream: Community Colleges Count.'' The 
initiative has a goal of increasing success for the growing number of 
students for whom community colleges are the point of entry into higher 
education, particularly low-income students and students of color.
    Eligible colleges had to have at least 33 percent minority 
enrollment, or at least 50 percent first-time, first-year Pell Grant 
recipients, and be located in Florida, New Mexico, North Carolina, 
Texas, or Virginia. States were selected on the basis of a central 
commitment to achieving the goals of the initiative. TCC is one of the 
colleges that has been selected to participate.
    The goals of Achieving the Dream are ambitious; after four years, 
it is expected that colleges will show improved success rates for low-
income students and students of color, and that those success rates 
will continue to increase over time. An increased percentage of low-
income students and students of color will hopefully:
    <bullet>  Successfully complete the courses they take,
    <bullet>  Advance from remedial to credit-bearing courses,
    <bullet>  Enroll in and successfully complete gateway courses,
    <bullet>  Re-enroll from one semester to the next,
    <bullet>  Earn degrees and certificates.
    Achieving the Dream funders and partners believe that data analysis 
is fundamental for effective institutional decision-making. Although 
colleges collect and report a wide-range of data for institutional 
management, as well as to meet the requirements of state and federal 
governments, and accreditation agencies, too often these data are 
disconnected and underused. Achieving the Dream colleges will use data 
on student outcomes to diagnose areas that need improvement, generate 
the institutional will for change, and assess the impact of the changes 
on students. College teams will develop a ``culture of evidence,'' 
using data to mobilize broad participation, to guide and assess their 
actions, and to shape policies and practices that support students' 
successful academic and career attainment.
    Achieving the Dream expects to foster change within institutions 
and in state policy. The initiative also seeks to increase knowledge 
about policies, programs, structures, and services that increase 
student success and to increase public support for raising 
postsecondary attainment levels. We do agree with the Trust report, 
however, that many of the necessary tools are known, lacking only the 
will and necessary resources to be implemented.

           What Congress Can Do to Increase Graduation Rates

    In additional to state and institutional actions, the Federal 
government has a critical role in helping more students graduate. The 
Federal government should:
    1)Provide More Student Financial Aid. Probably the most important 
thing that Congress or any party can do to help more students graduate 
is provide larger amounts of student financial assistance. The 
Committee is well aware of the lingering disparity in college access 
and a growing disparity in degree attainment between students from 
lower and those from more affluent income backgrounds. These stark 
disparities are morally unacceptable and represent a severe impediment 
to the nation's continued economic vitality. Federal student financial 
aid represents over 70% of all student aid and there is no substitute 
for it.
    Congress appears poised to freeze the Pell Grant maximum for the 
third consecutive year at a time when tuitions have risen dramatically. 
(No matter what is asserted, these increases are primarily due to state 
budget cuts, at least at community colleges.) We categorically reject 
suggestions that increased need-based student financial aid in any way 
contributes to increased community college tuitions. In fact, federal 
student aid represents no more than 7% of community college revenues. 
We urge this Committee to send a strong signal to appropriators and 
other policymakers that funding for need-based student aid must be 
increased.
    We commend the Trust report for pointing out that, in higher 
education, there is a strong overlap of students coming from low-income 
and underrepresented minority backgrounds. Colleges are often 
criticized for the low graduation rates of minority students when in 
fact the experience of these students simply reflects the college 
graduation rates of students coming from comparable income and 
educational backgrounds.
    2) Encourage Better Tracking of Students. Although we agree with 
the Trust that a federally mandated tracking system for the entire 
postsecondary education system is not called for at this time, Congress 
should examine options by which the postsecondary education system 
might better monitor the educational course of students over their 
college careers. This would include transfer between institutions, 
concurrent enrollment at two or more institutions, enrollment in a 
community college after attainment of a baccalaureate degree, etc. We 
believe that the Trust report underemphasizes the inadequacy of current 
data reporting systems. In some states, community colleges know 
immediately when their students transfer to a four-year college. In 
other cases, they hear nothing. This patchwork system of tracking 
students is a major impediment to fully understanding how the 
postsecondary system is operating. It also makes our colleges appear 
much less effective than they are in fact.
    3) Help Support Transfer Between Two- and Four-Year Colleges. Along 
with the American Council on Education, the National Association of 
Independent Colleges and Universities, and other associations, AACC has 
asked Congress to create a new program in the HEA that would provide 
assistance to institutions and states that would like to develop 
articulation frameworks, primarily between two- and four-year colleges. 
Development of these agreements is a time-consuming and expensive 
process, and federal assistance would be beneficial. While these 
frameworks have already been generated in some states, they probably 
won't be widespread without Federal support. AACC was pleased to see 
the introduction of H.R. 1871 by Representative Wu, and supports its 
passage, with modifications.

      Documenting Education and Earnings--An Important State Role

    One of the exciting ways in which states are helping our colleges 
better evaluate their effectiveness is in anonymously matching state 
unemployment insurance wage data records with student identifiers, so 
that ``before and after'' comparisons can be made about the economic 
returns of participation in higher education. Such systems have been 
established with differing degrees of comprehensiveness in Florida, 
Maryland, Illinois, Texas, North Carolina, Washington, Wisconsin, and 
California. While there are limitations on the utility of this data, 
they remain an enormously rich and cost-effective way of shedding light 
on the effectiveness of various college programs. This activity gained 
momentum when the 1998 Workforce Investment Act required states to make 
available UI wage data records in order to enable institutions to 
better track job training program performance. Regrettably, this 
framework has not taken hold across the country, in part because of 
what we believe are unfounded privacy concerns. These delays are a 
major source of frustration for many of our colleges. Nevertheless, we 
expect this trend to continue.
    In summary, while community colleges will continue to strive to 
meet their missions by serving many of the hardest-to-serve student 
populations, they are acutely aware of the need to achieve higher 
graduation rates. That is why AACC is actively involved in two major 
initiatives to achieve these ends. And we ask Congress to do its part, 
as well.
    Thank you for your attention to these comments. I look forward to 
responding to any questions that you may have.
                                 ______
                                 
    Chairman Boehner. We thank all of the witnesses for 
excellent testimony. And I may also thank my colleagues for 
their willingness to show up, and to learn more about this 
graduation gap that we have been American colleges and 
universities.
    Mr. Wiener, you made a pretty compelling case that there is 
a problem in graduation--the graduation gap between 
institutions. You didn't spend a lot of time talking about why.
    Why is it that some institutions, as you pointed out about 
four of them, have high graduation rates and others don't. Is 
there a single factor?
    Mr. Wiener. I don't think there is a single factor, and I 
think that we need to distinguish between factors that are 
within the control of institutions, or that we would want them 
to control, and factors that are not.
    Some institutions serve a--are more selective about the 
students that they accept. They have a lower percentage of 
students with financial strains. Those institutions, by and 
large, have high graduation rates. What we have looked at is 
comparing institutions that serve very similar students, and 
have noticed that some institutions distinguished themselves.
    I think one of the things that we know is, frankly, right 
now we don't know enough about what those institutions do 
differently. That's in part because we haven't had enough good 
data to really know which institutions are doing a lot better. 
But is also because the culture of higher education, both in 
policy and in tradition, has not really prioritized knowing 
which institutions those are, and learning from them.
    There are some promising practices under way, I would point 
to NSSE, the National Survey of Student Engagement, which is 
looking at studying the connection between institutions that 
have higher graduation rate, and what those institutions are 
doing. And what they are finding, is those institutions have 
more engagement between students and faculty, as Miami of Ohio 
suggested, has been important in their success. As well as, 
more engagement in the community of the college, generally. 
More writing assignments, more collaborative assignments 
involving multiple students. A number of factors that get 
students more engaged in their learning.
    And I just wanted to sort of preemptively, there's been a 
suggestion that to focus on graduation rates would encourage 
institutions to lower their academic standards. I don't think 
that there's any indication that the institutions that we've 
identified, who have distinguished themselves, have done that. 
And the surveys, the research that there is, suggest that 
institutions are doing better, are in fact doing it by focusing 
on teaching and learning.
    Chairman Boehner. Dr. Lingenfelter. What do you think the 
difference is between schools and this big difference in 
graduation gaps?
    Dr. Lingenfelter. I'm very impressed with Education Trust's 
work on this issue. I think many of institutional factors that 
they talk about must make a significant difference. My guess is 
that there is probably some other issues involved. There are 
some colleges that are legitimately stretched for resources, 
and it is very difficult to improve when that is the case.
    But, by and large, I think the whole culture of higher 
education in our generation has shifted from one that 
emphasizes selection as a means of determining quality, to one 
where we really understand the need to get a much larger 
portion of our people educated to a higher standard. That takes 
a change of mind set, and it's going to take some changes in 
the way that we do business.
    Chairman Boehner. Dr. Nault, what are the factors in 
Miami's success, in terms of this high graduation rate was the 
engagement of full-time faculty in actually teaching. Are there 
other factors that you believe make Miami successful?
    Dr. Nault. We have been--at Indiana University--Indiana 
University's trying to fill in some of these gaps in knowledge 
that we have. They have selected 20 institutions across the 
country that have this really very effective consequences for 
their students.
    And one thing that really strikes me about that study is 
that the institutions are very, very different. In other words, 
you have small Catholic institutions, you have large research 
institutions, their very different. But somehow, within their 
traditional mission, they have found a way with their 
community, and with their students, to be more effective. And 
the study is trying to unravel that, and it is very complex 
because they are very different sorts of places.
    I would say, we have said that our bread-and-butter, what 
we need to focus on is the education of undergraduates. And 
sometimes I think that some institutions become too broad and 
their purposes and their missions. And we have said, we need to 
stick to our bread-and-butter. That works for us. That works 
with clientele that comes from us.
    And we try to do a lot of things. You've been on our 
campus, and as you know, the scale of our campus is very 
different than many campuses. Even in building of buildings, 
we've tried to keep them small, to put the student at the 
center of the experience. And that is a decision that is 
related to that fundamental commitment. But what fits Miami 
doesn't fit all institutions.
    Chairman Boehner. Mr. Wiener, one last question. In your 
testimony, you talk about accountability by institutions should 
be seen as a responsibility not a choice. You want to elaborate 
on that for a moment?
    Mr. Wiener. Well, I think it goes back to my remarks and to 
the remarks of Dr. Lingenfelter about we really do need to have 
a change in culture. There needs to be an acceptance of the 
responsibility that institutions have a responsibility to 
students that they admit to do what they can, to support those 
students and to help those students graduate.
    And it's very important to those individual students 
themselves, many of whom will have taken on a debt burden that 
they are then expecting the rewards of a college degree will 
help them pay off.
    But it's critically important for society as a whole, as 
well. We need more college graduates. We will need more in the 
future as our population ages, and as we will need to support 
more retirees, and more jobs that we will want to have in this 
economy will require that education.
    You know, one of the things of that we found is that 
several high-performing institutions showed up in North 
Carolina. I don't think it's a coincidence that North Carolina 
has for a number of years publicly published graduation rates, 
and has had a system for holding campus presidents accountable 
for those graduation rates.
    I think we need to began to--that needs to be something on 
which we judge the quality of institutions.
    Chairman Boehner. Mr. Miller.
    Mr. Miller. Thank you.
    I, too, would like to thank you, Mr. Wiener, and Education 
Trust, for your report.
    A lot of people have written a lot of words, and discussed 
at great length, the question of when accountability that we 
now see at elementary and secondary education, was going to 
arrive at the door step of the institutions of higher 
education--and may have just arrived there with your report. So 
we can consider this day one.
    I think it's very important that we consider this question. 
We have been considering it in the discussions about the 
reauthorization of the Higher Education Act. We have discussed 
it in very different ways on both sides of the aisles. But, I 
think, perhaps your report points out some directions that we 
should go in and makes a critical distinction of holding 
institutions accountable for those things which they control, 
and those things that they don't.
    And, I also hope that the majority will read--all of your 
report, including the recommendations about some things that 
should be done because then that would bring us very close 
together on part of the bill.
    [Laughter.]
    Chairman Boehner. Hey, it's your hearing.
    Mr. Miller. Now, let me point out a couple of things. One 
is, I think that you have got to back up, because there is 
another gap that's been discussed. And again, Education Trust 
has been a leader in the discussion of this gap, and that is 
those students who graduate from high school and want to go to 
college, and who are in fact prepared to go to college. And 
there is a huge gap there.
    You have been a proponent, I know that in our state, of 
trying to suggest that a college preparatory only curriculum be 
available in our high schools and that we get everybody ready 
to go to community college, 2-year, 4-year, 6-year degrees, 
wherever they are headed.
    It's hard for me to think that we should be surprised by 
low graduation rates when 35 or 40 percent of the kids showing 
up at the state college system in California need remedial math 
and reading and writing skills. I don't know what our 
expectations would be about that class. I know we think that if 
we apply enough talent to that pool of people we get them all 
through graduation. But that's not the pool that you'd like to 
show up with on opening day in college, it would seem to me.
    And so, we better continue to address that gap, because 
it's unfair again, to suggest that the colleges can correct all 
those problems with that pool of students, whether it's at 
community college level or not. I think that in California now 
we're pushing those kids back into the community colleges and 
saying you remediate these kids, and then send them to us when 
they are ready.
    Well, what about the community colleges? They're going to 
be held responsible for graduation rates. Who remediates those 
kids before they get there--and that's called elementary, 
secondary education. So I think that point in your paper is 
very important, as are your other recommendations dealing 
with--recouping the buying power of the Pell Grant. As you 
know, that continues to be frozen, and I think it's about $700 
less than where it was 30 years ago.
    Also there is the question of excessive subsidies in the 
Federal Guaranteed Student Loan Program. And to make sure that 
we're designing those assets, as Dr. Nault testified to target 
those students who in fact need that financial assistance--how 
do we do that?
    So I think those are very good recommendations that I hope 
that the Committee will consider next year in its 
reauthorization of the Higher Education Act.
    Dr. Lingenfelter, let me ask you.
    Dr. Lingenfelter. Yes.
    Mr. Miller. At the end of the day, your report is telling 
us that from 1991 to 2003 there was a 2-percent increase in the 
total support for students in higher education combining 
tuition and state aid, even with the offset that you provide 
internally.
    Dr. Lingenfelter. That is correct. With enormous variation 
among the states.
    Mr. Miller. With enormous variations, enormous variations. 
One of those states where there is great variance is Maryland.
    I guess I just have trouble thinking that you're going to 
solve all these problems with a 2 percent increase over a 12 
year period of time, most of which a disproportionate share is 
being borne by students. And students--some with that one set 
of problems I talked about, whether they're college prepared--
we know that most students are working longer to try and stay 
in school because they are borrowing more.
    I mean this just doesn't sound like a formula for success. 
And we're asking apparently with the states, as you talked 
about on a roller coaster through recessions and recoveries. 
But the end of the day, as Mr. Kildee pointed out, students are 
still been as to absorb a larger share of the cost of running 
those institutions.
    One of the things we try to do in our legislation was to 
try and see if there was some incentives to get the state to 
stay in the higher education game, in terms of state support 
instead of what they're doing now.
    Most of them have obligations to deal with Medicaid--
health-care programs and elementary secondary education, so 
they cut higher education because they can lay it off onto the 
families, and they think that the families have decided, well, 
that's just part of the fee structure.
    I don't get how you can build this institution that is 
going to have this high levels of graduation rates across that 
general board, all the variances across the country, with that 
kind of increase in resources.
    Dr. Lingenfelter. I would never argued that resources are, 
and that additional resources, are not required to get where we 
need to be as a nation in higher education. I think the 
Congress, the states, and institutions all need to think hard 
about their spending priorities, their investment priorities, 
for these goals.
    I would also follow that by saying we need to use the money 
we have more effectively in order to get to these goals. There 
will never be enough money to make it easy unless the change 
some things in the way we do our work.
    I would like to make just one other comment on state 
accountability, if I could. Our association established a 
National Commission on Accountability in Higher Education, 
because the states have had--had been working on this issue for 
more than a dozen years.
    The Commission is chaired by Former Secretary Riley and the 
Former Governor of Oklahoma, Frank Keating, and includes 
several legislators. I won't take more time telling you about 
it, but I just want to flag that report and it will be 
available in November, probably. And we hope that will be 
useful to the Congress as you sort through some of these 
issues.
    Mr. Miller. Just one final point. Dr. Nault, you mentioned, 
you know, that your lower division undergraduates are all 
taught by full-time professors. I don't know if we've would, in 
fact, even be capable of doing that in California with the 
current economic support we have for higher education. We have 
basically outsourced those jobs to teaching assistants. And to 
recover that ability at our big state institutions, the 
universities and State colleges, I assume would cost a fortune.
    Dr. Nault. Yes, that would be very expensive.
    Mr. Miller. I don't relish, I don't like this practice at 
all. But, that's what has happened.
    Dr. Nault. And I think that practice does have some 
consequences and that we would lose some students that we would 
prefer not to lose.
    I think again, and I want to make the point that how we 
choose to do it can't fit everyone. And I realize--
    Mr. Miller. No, I understand that and I am not holding you 
responsible for that burden. I just think as we continue this 
discussion, just as Dr. Lingenfelter pointed out, there are 
these huge variances in financial support, there's huge 
variances in the types of institutions, and the student bodies 
of those institutions--
    Dr. Nault. Absolutely.
    Mr. Miller.--and missions of those institutions. And I'm a 
big fan of accountability and I am delighted that this report 
was issued. But I think it's going to be the implementation of 
the kinds of suggestions that would be helpful.
    At the end of the day, and I know my republican colleagues 
hate to hear this, but at the end of the day in some of these 
institutions somebody is going to say, it's going to require 
substantial additional resources, if in fact you're really 
going to provide that kind of educational opportunity.
    And, when you say over the last 12 years we have had a 2 
percent increase, when you throw everything in, I don't know 
many of institutions of quality that have survived on a 2 
percent increase over last 12 years, elsewhere in society. Or 
many businesses that have been able to do that. Thank you.
    Chairman Boehner. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you all for being here today, and this is such an 
important issue about graduation rates. I worked on this in the 
state Senate for seventeen and a half years. And was 
constantly, as we were approving, members of boards of trustees 
of public colleges and universities, it was always an impetus I 
had to ask them as to a commitment for a 4-year graduation 
rate, hopefully, for undergraduates.
    And so I share the interest of the Congressman from 
Michigan, Mr. Kildee. I announced to my children that it was a 
4-year institution experience. And I in May completed my third 
on that, and I have one more to go.
    But then there is graduate school. I didn't think of this. 
But I'm really proud of them. And a 4-year rate is so important 
to me to try and achieve. For the young people it's more 
fulfilling when you have a 4-year experience, I believe. 
Additionally, it's so crucial for families, the financial side 
of it. They hope that their young people will be fully 
participating in society. Additionally for the institutions.
    I am delighted and I wanted to congratulate Dr. Nault and 
in the University of Miami. How extraordinary, 81 percent 
graduation rate. And I've seen too often, seemingly an emphasis 
on FTE, full-time equivalent students and less emphasis on 
assisting people to graduate.
    And Mr. Wiener, I want to thank you for your study, and in 
particular to indicate--your report indicates that even when 
controlling full variety of factors such as mission, financial 
resources, test scores, and degree programs, some institutions 
significantly outperform others. And you have already 
referenced to a degree, the sister State of North Carolina, 
which has some requirements.
    What do you attribute the success of the high performing 
institutions?
    Mr. Wiener. Again, I think that it is likely a combination 
of factors. I think part of it derives from seeing graduation 
rates as a responsibility and a priority.
    I mean, when you talk about institutions having outsourced 
a fair amount of the undergraduate teaching to teaching 
assistants, what that does is free up full professors for their 
independent research. I think that we want to value that 
independent research. But, that has been valued over the 
responsibility to help undergraduate students to be engaged in 
the university, and to persist, and to graduate. And so we have 
got to find a better balance between those things.
    So I think, No. 1, we just simply need to make more 
explicit our commitment, the commitment of society. But the 
commitment, in particular, of systems of higher education to 
helping students persist and graduate. And I think part of that 
will then drive a number of different reforms.
    It will get higher education more engaged in making sure 
that students get the preparation that they need before they 
get higher education, which congressman Miller pointed out, is 
certainly continues to be a challenge that we absolutely have 
to continue to focus on.
    Mr. Wilson. Another resource that I have really relied on 
and found so helpful are guidance counselors. And in your study 
what has been done to promote guidance counseling, where you 
have people who are very familiar with course availability, 
with the requirements of degrees?
    Possibly--and there are so many new opportunities now, with 
career counseling, where people can find their niche, not in 
their junior year, hopefully sooner, so that they can indeed be 
fulfilling in society.
    And so guidance counselors really is--is there an emphasis 
on that now.
    Mr. Wiener. Yes, we have worked very hard at the Education 
Trust through an initiative called the Transforming School 
Counseling, to try and--we have worked both with practicing 
counselors as well as higher education programs that trained 
counselors around, again really transforming counselors to make 
sure that they are in working with students, to make sure that 
students understand what kind of academic preparation they're 
going to need to pursue their dreams and their goals. And then 
to serve as advocates within the education system to make sure 
that those opportunities are available.
    A large-scale transcript study by the Department of 
Education established that course taking, the rigor of a 
student's high school curriculum is the single most significant 
predictor of college success. More significant than race or 
socioeconomic status toward predicting college success.
    And yet, that counseling is not in place in all schools. 
And indeed, even the opportunities themselves to adequately 
prepare for college are not there in all schools. So is a 
challenge that we definitely still need to work on, and 
counselors can play a big role in that.
    Mr. Wilson. It's been terrific at the high school level. 
But additionally, once you arrive, to me it is so important to 
have a guidance counselor, not just a professor assigned, who 
would pro-actively give advice. And I just want, it has been my 
experience, very positively the guidance counselors have made a 
difference.
    And I yield the balance of my time. Thank you.
    Chairman Boehner. The Chair recognizes the gentleman from 
New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I would like to thank 
the witnesses for their outstanding testimony this morning on 
such an important topic.
    I was really stunned by the fact, compelled by the fact 
that low-income students who start college, 46 percent of them 
do not graduate within 6 years. African-American students who 
start college, 54 percent do not graduate within 6 years. 
Hispanic students 53 percent do not graduate within 6 years.
    And I know that dollars are not the only cause of that 
problem. But, I think that it is important that we understand 
the extent to which dollars are a cause of that problem for 
low-income students.
    And Dr. Lingenfelter, I wanted to go back and look at the 
report that your organization has discussed, and you have 
discussed today. I'm not quite sure I understand your 
conclusion based upon your own data.
    On page two of you testimony, you say that despite 
contractions during economic downturns, since 1970, state 
support nationally has kept pace with substantial enrollment 
growth and inflation as measured by CPI. This is an impressive 
achievement when one considers the amount of enrollment growth, 
et cetera.
    If I understand the basic point is that state aid has been 
keeping up, generally keeping up. Is that a fair paraphrase of 
what you said?
    Dr. Lingenfelter. If you look at the national picture, the 
states in the aggregate, have provided resources that kept pace 
with inflation, measured by the CPI, which underestimates by 
about a percentage point a year, real inflation in higher 
education.
    Mr. Andrews. OK. If I read those aggregate data in your 
report, you tell us first of all, that full-time enrollment, or 
enrollment at least is up 18.7 percent during that period, 
right?
    Dr. Lingenfelter. That's right.
    Mr. Andrews. So there is nearly 20 percent more people 
attending these state institutions.
    Dr. Lingenfelter. That's correct.
    Mr. Andrews. And then you tell us that the spending per 
FTE, in real dollars, is up 2.1 percent.
    Dr. Lingenfelter. In the aggregate, yes.
    Mr. Andrews. In the aggregate.
    Dr. Lingenfelter. And that--
    Mr. Andrews. Again, I understand that we're talking about 
aggregates here. This would tell me then that you would need 
about 20 percent more money to run to run your institution. If 
you got 18 percent more people, and you're spending 2 percent 
more per person. If you do the math, it's about 20.3 percent 
more money you need to run the institution. Is that right?
    Dr. Lingenfelter. Yes.
    Mr. Andrews. All right.
    Dr. Lingenfelter. The--
    Mr. Andrews. And then you tell us that state support is 
down 7 percent during that time.
    Dr. Lingenfelter. Right.
    Mr. Andrews. Well, it seems to me, if your costs are up by 
20 percent, and one of your revenue sources is down by 7 
percent, that the only choice that you got left is to make it 
up in a large way from somewhere else, right?
    Dr. Lingenfelter. Sure.
    Mr. Andrews. There are two somewhere elses. The first would 
be, and because we have already accounted for cross-
subsidization aid institutionally, right? You have already 
baked and into the cake.
    Dr. Lingenfelter. Yes.
    Mr. Andrews. So the only two places here would be the 
Federal Government to the Pell program, or from the student him 
or herself.
    Now, the Pell program as we know is not seen significant 
growth. It is my understanding that in 1975 the Pell Grant 
covered like 79 percent of the average cost of a 4-year public 
institution. Today it is down to 40 percent. So Pell at best is 
sort of struggle to keep pace, which tells me that the 
somewhere else that's institution has reached to the students. 
Not surprisingly, your own report shows that net tuition has 
gone up by 28 percent, right?
    Dr. Lingenfelter. That's correct.
    Mr. Andrews. So it seems that your own data say that in 
real dollar terms, it costs a student almost 30 percent more in 
tuition to go to school than it did in the beginning of your 
study. Don't you think that would be a pretty compelling reason 
to explain why low income people wouldn't be finishing as much?
    I don't understand how you draw the conclusion that state 
aid has been constant, when it's gone down by 7 percent. When 
the need to run the institution has gone up by 20 percent, not 
surprisingly, you have a 28 percent tuition increase. So, isn't 
your conclusion wrong?
    Dr. Lingenfelter. I'm not drawing inferences. I'm just 
giving you what the numbers show, sir. And it is clear that 
tuition has gone up, as the data show. It's gone up more in 
some states than others. It hasn't gone up in every state. And 
it is also clear that the states have continued to make higher 
education a high priority. Some states have been able to do a 
better job of that--
    Mr. Andrews. But it is not an inference that we're talking 
about, it's a statement, an explicit statement.
    In your testimony, you say--
    Dr. Lingenfelter. Right.
    Mr. Andrews.--that state aid has kept constant. But your 
numbers drawn from your testimony say the costs in the 
aggregate have gone up by about 20 percent. And the states' 
support has gone down by 7 percent. How does that measure up to 
keeping pace?
    Dr. Lingenfelter. The testimony and the numbers used two 
timeframes, sir. The first was from 1970 to 2003. And the point 
that we were trying to make, was that in the long run, states 
tended to regain what they loss in recessions. There's no 
question that in the past three or 4 years particularly, in 
enrollment growth has been enormous. We've had 9 percent in 
enrollment growth in the last 3 years. And the states had not 
kept up with that. That's what the--
    Mr. Andrews. But all the numbers I've used from your 
testimony are from 1991 to 2003. I'm reading from the appendix 
to your testimony.
    Dr. Lingenfelter. That is correct. During that time period.
    Mr. Andrews. OK.
    Dr. Lingenfelter. The point that we were trying to make, 
frankly, was that there are those that say that the states 
don't care about higher education, and that the states are 
pulling away from it. And the point that we--we look at the 
numbers and we said, you know, there's a pattern here. When you 
have a recession you get a spike in enrollment.
    Mr. Andrews. Yes.
    Dr. Lingenfelter. And you get a shrinking state budget.
    Mr. Andrews. My time is up, but I would just close by 
saying that I think there is a pattern here. That you need 20 
percent more to run your institution. You're getting 7 percent 
less from the state government. I'm not saying that states 
don't care, but I think it means--I agree with your numbers, 
but not your words.
    Chairman Boehner. The gentleman's time has expired. The 
Chair recognizes the gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman, and thank you, 
gentlemen all, for being here today and for your statements and 
for your answers to our questions.
    The problem that were struggling with all the time, as you 
know very well, in this Committee how to get access for more 
students to attend higher education. And then once they get 
there how does it see that they successfully complete that 
education. And whether it is a 2-year institution, and I have 
some of those in my district, or a 4-year and I have some of 
those as well, I am proud to say, in the district. I would like 
to take just a minute, Dr. Nault, and talk to you, because you 
have, it seems to me, have a pretty good story to tell.
    And you mentioned several things in your testimony that you 
have, for example, 65 percent, I think you said full-time 
faculty during the teaching. And I remember, it is a distant 
past now, as each year goes by, that in my days in college we 
had, sort of a pejorative term, I think we call them 
``labbies'' who did an awful lot of the teaching.
    So it seems to me that you're looking at some residents 
involvement, some mentoring and some other things that appear 
to be paying off in a better than average graduation rate.
    You specifically mentioned that you develop several 
programs that seek to improve graduation rates, focus directly 
at minority students, at the gap that we're talking about. 
Could you just sort of run through those again, the things that 
you're doing to help improve that graduation rate among the 
minority students?
    Dr. Nault. Absolutely. And let me suggest a framework for 
that. I think it is not sufficient to have access, particularly 
for students that traditionally have been under- represented in 
higher education. I think you have to have a climate at the 
institution that once they are there, they feel it is their 
institution, and that they are going to graduate at the same 
rates.
    And I think most of our institutions, I think none of us 
are proud of this, most of our institutions have graduation 
rates of students of color, first-generation goers, are 
somewhat lower. And I think that one of the struggles in higher 
education is to try to get that gap to decrease.
    We have chosen to do it with several ways. We opened a 
center for American world cultures that brings together all of 
our curricular emphasis on diversity on campus. We have all 
students take a course on American culture that focuses on 
pluralism in our society.
    One of the ways we're trying to educate students across the 
campus, particularly students, White students, who may have not 
encountered difference in their backgrounds. To make that an 
environment that is truly welcoming.
    So I think you're making an important point, it's not just 
access, but what is the climate students are going to have once 
they are there. And I think that means programs of, you know, 
Latino studies to African-American studies, and so forth, that 
really ensure that students feel that this is my place. This is 
my institution.
    Mr. Kline. And so the personal emphasis that you are 
placing through mentors, through resident monitors, I'm not 
sure of this right word, but attention where students live and 
where they work, is something that seems to be working for you. 
The increased use of faculty to teaching class, are some 
things. And those apply sort of across-the-board.
    Let me flip the other side here, and I don't want this to 
be a sort of a war between institutions, and I understand that 
I am running that risk. But some other institutions have 
traditionally low graduation rates. And can you address why, 
what in your view, what are the things that are causing that.
    Dr. Nault. I want to be extraordinarily careful, because I 
think it is--
    Mr. Kline. As you should, sir. And as should I. But, so--
    Dr. Nault. I think is difficult to say. I would say that 
sometimes in higher education we have all chased issues of 
status, and often that is defined on research and successful 
programs. I think sometimes we have lost the focus on 
undergraduates. So for me, which strikes me about the reports 
that we have, is that the institutions that seem to be 
successful, at least in my view, is they have run very good 
graduate programs, and they have had an emphasis on scholarly 
research. And we need that for our society. But they have also 
said that we're not going to build that on the back of 
undergraduates, we are going to have that as something that 
complements the undergraduate experience.
    And I think, you know, there is not one size that fits all. 
I think various institutions have done that in different ways.
    Mr. Kline. Thank you. If I could, just one more question. 
There seems to be general agreement among all of you that we 
need more and better data. Is there one of you that has a 
particular, a particular idea in mind for that more and better 
data? And I'll take it from anyone of you who is ready to jump 
out there. Do you have something specific in mind that would 
help us to address that problem.
    Dr. Law. I'll make one quick comment. The challenge is that 
students move among institutions. And we lose track of them.
    And all the data we have, have an individual institution 
perspective. Some of the states have develop student unit 
record systems, and they have protected privacy by basically 
put in a screen so that you're only look at groups of students. 
And that kind of the system is more efficient and gives you 
better quality data than the ways that we have worked in the 
past.
    It's got some challenges, they have got to be dealt with 
very carefully. But that helps.
    Chairman Boehner. The gentleman's time has expired. The 
Chair recognizes the gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Question for Dr. Law. One of the first higher education 
bills introduced in this Congress was a bill that some of us 
called ``price controls on tuition.'' Do you believe, or is 
there in your opinion, a relationship between increases in 
student aid and higher tuition?
    Dr. Law. I think that probably data can be shown, there's 
always some relationship. I think we understand that. A great 
number of students do get aid. And in a large measure community 
college, certainly, that assists a great deal.
    Go back to the point I made. I have now made almost 25 
recommendations annually to boards of trustees for tuition. I 
have never been party to a discussion that said, we can raise 
it because our students are--Pell will take care of this, or 
those kinds of issues.
    I will tell you, Mr. Kildee, in Florida for the first time 
though we're seeing that discussion, because we have 800,000 
students on the Florida prepaid program. And indeed the only 
brakes on the system. I'm giving you my own personal view. The 
significant brake on the system of ever higher tuition, is that 
it will break the back of that system. They can no longer 
project. Your child is born, and you pay a certain amount, and 
you get guaranteed tuition when that son and daughter is ready 
for college. So we're seeing a variety of intersections.
    For community colleges the reality is low tuition makes the 
difference. And if at our institution some 7500 of 12,000 
students get Pell aid. I would no more make the recommendation 
that we could raise tuition because Pell would pay for 
everybody, that's just not simply what I would do.
    We're mindful though the 7500 of our students must get aid 
to cover any increase that we make. So, I'm sorry. For 
community colleges it is not quite as direct as I think it 
probably could be elsewhere.
    Mr. Kildee. On the other side of that coin, is there a 
relationship between state funding cuts and tuition increases?
    Dr. Law. If you will, my experience is different. I was in 
three different states over the period covered by that study.
    In Florida is very clear. After September 11, with the very 
significant downturn in our tourist economy, all of us 
struggled to try and keep a modicum of finance support under 
students. And we did, in fact, shift some costs from the state 
to the students. I will tell that for a community colleges in 
the budget the just started July 1, due to the leadership of 
our Governor, we turned that down for the first time now and 
some 5 years. But there is. We clearly went from students 
paying about 25 percent of their education, to students paying 
about 34 percent of their education.
    Mr. Kildee. Thank you, Doctor.
    Dr. Lingenfelter, your report predicts that funding for 
higher education will recover in the future. What about certain 
structural forces that out there, such as the underfunding of 
K-12 education, particularly with ``No Child Left Behind'' 
which puts a heavy demand upon state government. Medicaid which 
is putting a terrible burden on state government now.
    The fact that state tax systems are generally not keeping 
pace with growing demands. How do you feel that the higher 
education will recover in the future with those structural 
factors.
    Dr. Lingenfelter. I think those are serious issues. And our 
report didn't make any predictions about the future. We 
observed that it has recovered in the past. I think it is 
important that states find a way to have it recover in the 
future, because of the priorities we have been talking about 
today.
    Mr. Kildee. And the issues that you mentioned are very 
real.
    Dr. Lingenfelter. They are real.
    Mr. Kildee. We have probably not passed a more intrusive K-
12 bill in the history of the country, because you really reach 
into individual schools, and require the states to restructure 
and reconstitute schools. K-12 education is going to be a heavy 
financial burden, alone.
    So if your report is correct, there are certainly some 
ominous signs from the past that will affect the future as to 
the legislature being able to fund higher education.
    Dr. Lingenfelter. I would say, sir, that the intent of our 
efforts to improve education performance is urgent, and we need 
to find a way to do that with accountability mechanisms that 
are sort of tailored to good educational practice.
    I don't think we have solved that problem in the Nation 
yet. I think we're still working on it. The Commission that I 
mentioned earlier is going to try to sort of draw from the 
experience of the states, and make some recommendations that I 
hope this Committee and others in the Congress will find useful 
to deal with that very issue.
    Chairman Boehner. The gentleman's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    I've been in this Committee now for almost a couple of 
years. And one of the things I have discovered is that all 
solutions involve money. In fact, it seems that money solves 
every problem in America today. But I have some questions that 
I think don't involve money.
    I have a son who is a teacher and a coach, and I also 
taught high school, seniors in high school and Sunday school 
for 22 years. I've seen lots of kids come and go, all kinds of 
kids, and I have talked to them a lot. And they have 
frustrations with the universities that they go to in Austin. 
It's not one or two, it's all of them.
    One of the frustrations that kids run into is that they 
were all degreed. We're talking about--and my dad told me it is 
4 years or die, and I graduate in 4 years. Even though at that 
time everybody said it was four and a half years to graduate. 
Now we're in numbers of 6 years to graduate on a 4-year plan.
    Well, one of the questions that I hear from kids constantly 
at the junior and senior level in college is I have 
requirements that have to take that are not offered. I can't 
get the sections to be offered. So I don't have any choice. I 
have to continue school for another semester or two semesters 
because they're not offering the sections that I need that are 
required for my degree plan. To me that's something that we 
ought to be talking about the universities are doing to solved 
that kind of problem.
    And the second tier of that problem is, and when I go to 
seek help there is a section in my university which is involved 
in helping me, and I get to stand in line for about 8 hours to 
get to see that counselor. And that's not acceptable to them. 
And a lot of these kids, especially if they're struggling, 
borrowing the money, need to go to work, they just say I'm 
dropping out this semester, and I'm going to work, and they 
never get back. And I can name at least a half a dozen that I 
taught in Sunday school, and that is exactly what happened to 
them. They got frustrated with the system. They said, why 
should I hang around and take courses that I don't need just to 
stay in school. I'll drop out and get a job and come back, and 
they never get back.
    It seems to me that the students are your customers. You're 
in the business of educating undergraduate students. None of 
the universities, the 4-year universities would--six-year 
universities, would exist today as graduate student schools 
only. Now as you say, the undergraduate students should be the 
target first, and then the graduate schools.
    So what can we do to encourage universities to take care of 
making sure that offer what kids need so that they can, if they 
are industrious, and graduate within a reasonable length of 
time.
    And the second question that I have is, we seem to be 
coming more and more to the government, the Federal Government, 
seeking us to create accountability. I understand and I am for 
accountability, very much so for accountability. And we have 
imposed accountability on our elementary schools, and our high 
schools, and we're continuing to impose that.
    But these folks, you people are, they're paying you money, 
you're their customers. Why should we have to impose 
accountability on you. Why shouldn't you impose that 
accountability in order to keep your customers, and if you 
don't why shouldn't there be something put out that this 
university won't help you. And the kids won't go there, and you 
will go broke. Because somehow, I don't want to be on the 
school board of every major university in the entire country, 
sitting up here in Washington. I would like for the schools to 
be responsible to these kids.
    So there's my speech and my questions. Does somebody want 
to answer them? Dr. Nault.
    Dr. Nault. If I could, let me start. I think for students 
to not get courses that they need is unconscionable. I think 
you're absolutely right. I think sometimes that occurs when 
students don't make very good plans. But I think if a student, 
in good faith, makes good plans with counselors, that should be 
available. So I don't have no disagreement with you there.
    I think what is happening is there is a trend nationally. I 
think students or parents look to colleges and they look at how 
difficult it is to get into the institution. That often 
determines prestige. But now, as my colleagues here have 
mentioned, we're looking more and more and saying, we need to 
be more public, more open.
    And I think it has to be data that is understandable to 
parents. I think that we can drown parents with lots of data 
and lots of statistics. I think it has to be fairly clear. But 
now, we're more saying, what is exactly happening to the 
student when he is there. She is there.
    Mr. Carter. And one of my concerns is it's frustrating to a 
kid who comes from a background, that background you say that 
generally succeeds, they get frustrated and dropped out. The 
kid that is a first-generation student, and maybe a minority 
student, that frustration multiplies 10 times for the student.
    This is a new world they've gone into in which they are 
trying to actually function at a level which their economic 
resources don't allow them to function with other kids there, 
and that's a matter of dollars. And then to run into stumbling 
blocks put up by the universities, which many parents think is 
to create more money for the universities. Because the more 
that they go there, the more they pay you. And that's something 
that we have got to get past because it's harming our kids and 
they are dropping out of school. I'm firmly believe that.
    Chairman Boehner. The gentleman's time has expired. The 
Chair recognizes the gentleman from New York, Mr. Bishop. He 
might know a little bit about this, based upon his background.
    Mr. Bishop. Thank you, Mr. Chairman.
    Everything that I always learned about student retention 
and graduation rates suggested that retention, in and of 
itself, ought not to be the goal. That the goal ought to be 
improved institutional effectiveness, and that if institutions 
were more effective, improved retention would be a by-product 
of that. And certainly, Dr. Nault, your testimony in the 
experience at Miami of Ohio speaks to that.
    But within that, we know from Mr. Wiener's data, income and 
therefore need, is a determinant of student success is measured 
by graduation rates. Correct?
    Mr. Wiener. It correlates with graduation rates. I'm not 
sure, it's not a determinant, in that we have chosen in this 
country to distribute educational opportunities at the 
elementary and secondary level according to--
    Mr. Bishop. But if affluent students are more likely to 
graduate--
    Mr. Wiener. There is no question--
    Mr. Bishop.--then non-affluent students, certainly that 
suggests that student need, and therefore the availability of 
student financial aid, is going to help students graduate. 
Correct?
    Mr. Wiener. Yes, certainly.
    Mr. Bishop. OK. So one imperative, it seems to me, that 
before us as we reauthorize the Higher Education Act is to see 
to it that sufficient financial aid resources are available to 
support students aspirations, correct?
    Mr. Wiener. Yes, again, I agree with that.
    Mr. Bishop. All right. So, if we take that as a given, as 
we now go to reauthorize the Higher Education Act, how can--
what is the role of the Federal Government, or what is the role 
that the Federal Government can best play in encouraging or in 
enhancing institutional effectiveness in areas that go beyond 
proper support of student financial aid programs. Let me start 
with you, Dr. Nault.
    Dr. Nault. I would say the directions that you're already 
considering, and that making it fairly clear to parents and 
consumers, students as consumers also, what is the success of 
the institution given the resources that they have.
    Mr. Bishop. See, that's not the question that I'm asking. 
That's the end result. I mean, that's letting market forces 
determine whether or not students chose those schools.
    Where I am going is how can we help encourage schools to do 
a better job of providing the educational services that they 
are in effect obligated to provide. Such as what you have 
already done. Is there a role for the Federal Government?
    Dr. Nault. First of all, I described these institutions as 
black boxes. And we know very little about what actually is 
happening internally. So I think the funding for research has 
to illuminate that, and also makes that assessable to 
institutions of higher education would be a useful source. So I 
would say I would start with that part.
    I know people get frustrated when they say we don't have 
simple answers. And unfortunately, higher education is complex. 
And I know that we have a responsibility to make a better. But 
part of it is that we have to understand more what is happening 
inside that black box. That is why I encourage certain studies 
now that are going on, to say, if you look at those exceptional 
institutions, what's happening and then try to translate that 
to the administrators of those universities.
    And I don't think that's the Federal Government, I don't 
think that's your job to tell us to do that.
    Mr. Bishop. OK.
    Dr. Nault. But I think it is to saying, this is an 
expectation we have, but can you use the best research that is 
available to improve.
    Dr. Lingenfelter. I would just add that the data that the 
Federal Government collects, in fact, the changes you made in 
1992, to help us to define and struggle with graduation rates, 
make a real positive contribution. Institutions need a way to 
compare themselves with others. And so the data collection 
activities of the Federal Government are very important in 
improving education.
    Mr. Bishop. Mr. Wiener.
    Mr. Wiener. I think one important contribution Federal 
policy could make is to recognize and celebrate the 
achievements of those institutions that are doing better. And 
through that, bring more prominence due to the fact that some 
institutions are doing better than others. I think that would 
create an interest in learning more about them, and it would 
begin a conversation within institutions, and within systems 
about why aren't we doing, why aren't we seeing the success 
that they are.
    Mr. Bishop. Dr. Law.
    Dr. Law. I would suggest that, as I was preparing for this 
testimony, the areas that I think that are most helpful to me, 
is to pay careful attention to the standards of progress for 
Federal financial aid eligibility. That is if you asked me who 
will not be at Tallahassee Community College in the future, I 
would look to that eroding progress in a student's plan to 
project who won't make it to graduation. Much more than grade-
point average, I might add.
    The only people with low grade-points, which generally 
trigger interventions to help, are those who haven't figured 
out the drop policy. Because if you know the drop policy, 
there's no reason to have a low GPA.
    Mr. Bishop. I learned that. I guess, many of us ought to be 
giving testimony on that.
    [Laughter.]
    Dr. Law. The answer, however, the interventions need to be 
refocused on students who aren't making progress, who are in 
fact dropping out of courses. It's a particular problem for 
community colleges. We are easy to get into, and we're easy to 
get out of.
    The other that I would simply add, that I don't know is a 
Federal mandate, the thing that frustrates the daylight out of 
me, as a community college person, is what I call the insurance 
majors. The students who are there full-time so that they can 
stay on dad's insurance. And they're not prepared to take a 
full load, so they start dropping courses, and then we see the 
pattern that leads to non-graduation.
    Mr. Bishop. Thank you. Thank you, Mr. Chairman.
    Chairman Boehner. Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman, and thank you all for 
being here today.
    I have had a little bit of experience with graduation 
rates, and I think that just recently that you have tried to 
come with some graduation rates on a national basis. And 
intercollegiate athletics it's been about 15 years ago that 
somebody came up with the idea that we're going to publish 
graduation rates. And so it was in the early or middle '80's 
that we started. And then, at the end of 6 years, we had to 
publish those rates.
    And I am in accordance with some of the things that Dr. 
Nault said. What I have found, the amount of attention you pay 
an undergraduate, the amount of counseling that you give them, 
makes a huge difference. And so generally speaking, we were 
able to find that our student athletes would graduated about 15 
to 20 percent higher than the student body. And in some places 
that wasn't true. But we basically said, look if you want to 
play on Saturday, you go to class. And these things are going 
to happen, and you going to see your counselor, and so on.
    So I think that a lot depends on the mission of a 
university. If the mission is research, if the mission is the 
faculty needs to publish, and undergraduate graduation is a 
distant third, you're going to get that.
    If, on the other hand, if the mission is to educate the 
undergraduates, that is probably what you're going to get. And 
so, you know, I've really been concerned because I think the 
most expensive thing that can happen in higher education is not 
to graduate students. I mean that if you have somebody go there 
and they eat up a Pell Grant, and they have student loans, and 
their own family resources, and they are there for two or 3 
years and they do not graduate, that's a horribly expensive 
proposition.
    So, I was somewhat interested in some of things that Dr. 
Lingenfelter said. And you're saying that Congress should begin 
to make some requirements. Of course, we are seen the 
popularity of No Child Left Behind, where we have made some 
requirements. But the publication of graduation rates, I think, 
is one thing you mentioned was being important. And then having 
specific goals for improvement was important.
    One thing that is going to happen now in athletics, I 
think, is that you're going to find that to some degree, 
schools are going to be rewarded for graduation. In other words 
the number of scholarships they can give out.
    Would something like this, where you say, OK, we see they 
were getting more bang for the buck from Pell grants for 
schools that are graduating 70 percent as opposed to 40 
percent, assuming then the same peer group. In other words, 
there are similar types of institution.
    What would your reaction, any of you, be to say, OK, we 
will tie Federal money to performance. I know that would start 
a firestorm, and it would be very, very unpopular.
    But my guess is that in intercollegiate athletics, if they 
start tying the number of scholarships you can give to how many 
kids graduate, you're going to see a heck of a lot of 
difference in terms of performance. You're going to see a lot 
of schools that have been paid a whole lot of attention, really 
start paying attention to this.
    So anyway, just being interested in your thoughts. It's 
pretty far out, maybe. But the Pell Grant thing bothers me, 
because I know that we've doubled the program in the last, what 
10 to 15 years--15 years, may be. But the cost of education has 
been going up about 8 percent a year. So, you know, it's far 
outpacing inflation, therefore the Pell Grant can't catch up.
    And so, anyway, back to my original question, what do you 
think about tying Federal aid to performance.
    Dr. Lingenfelter. I would like to suggest that states that 
had a lot of experience trying to do that at the state level, 
and it gets--usually end up with some unintended consequences.
    You have to do that fundamentally, but when you do it on a 
formula basis it creates a lot of problems. And I really don't 
have enough time to get into the details of that. But, it's 
tough to do at the state level. And I think that at the Federal 
level, given the differences among institutions and states, it 
would be even harder to get into sort of specific incentives 
and sanctions for institutions.
    I think that there's a better way to deal with this issue, 
but it's a little more complicated than that.
    Mr. Wiener. I would echo the caution about unintended 
consequences. A very important priority of the Federal 
investment in higher education has been around access, and 
making sure that more low-income students, and previously 
under-served students are able to get to college. And that 
should continue to be a very strong priority. And you would 
want to be very careful that consequences for institutions 
didn't undermine students access to higher education.
    Something that I found very interesting when we were 
preparing this report, and then preparing for today, was to 
realize that when Pell Grants were initially authorized, there 
was a program to provide institutional aid to the institutions 
that served students eligible for Pell grants. And that it 
seems to me there could be a way to both ``incentivize'' 
institutions to educate more low-income students, and also to 
tie those incentives to making sure that those students 
persisted and actually graduated. That could be a very 
constructive Federal investment.
    Mr. Osborne. Thank you. My time is up. I just want to add 
one other thing. That is that we did find that our African-
American graduation rate, in many cases, was very equal to, and 
in some years exceeded. But again, it was a focus. It was part 
of the mission. And you certainly can ``incentivize'' that, as 
well.
    And so with that, I yield back.
    Chairman Boehner. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Chairman, before I ask my questions I would like to ask 
unanimous consent to insert into the record a letter from 
Representative Jim McGovern regarding the needs of foster care 
youth relevant to the access to post-secondary education.
    And in addition, I asked that the attached report by the 
Casey Family Foundation program be kept on file.
    Chairman Boehner. No objection. So ordered.
    [The material to be provided follows:]

 Letter from Hon. James P. McGovern, a Representative in Congress from 
          the State of Massachusetts, Submitted for the Record

June 21, 2004

The Honorable Howard ``Buck'' McKeon, Chairman
Subcommittee on 21st Century Competitiveness
Education and the Workforce Committee
U.S. House of Representatives
Washington, DC 20515

The Honorable Dale Kildee, Ranking Member
Subcommittee on 21st Century Competitiveness
Education and the Workforce Committee
U.S. House of Representatives
Washington, DC 20515

Dear Chairman McKeon and Ranking Member Kildee,

    On Tuesday, June 22nd, your subcommittee will be hearing testimony 
on access to college and a higher education. As you review the 
information and material presented to your subcommittee and prepare to 
incorporate your findings and conclusions into the reauthorization of 
the Higher Education Act (HEA), I ask that you focus serious 
consideration on how to increase access for help and funding from 
existing programs and incorporate into any new programs the needs of 
foster care youth in their pursuit of postsecondary education. I also 
ask that this letter, along with the recent report, Higher Education 
Reform: Incorporating the Needs of Foster Youth, issued by the Casey 
Family Programs, be entered into the record of the June 22nd hearing on 
college access.
    As you and your subcommittee colleagues are aware, approximately 
20,000 teens are ``emancipated'' or ``age-out'' of the foster care 
system each year. These young people have the same limitless potential 
and the same dreams of pursuing a higher education as their non-foster 
care peers. Sadly, foster care alumni are statistically more likely 
than the general population to face such challenges as homelessness, 
incarceration, and lower lifetime earning potential, especially without 
a college degree or vocational specialty. Youth in foster care are less 
likely to be enrolled in classes that prepare students for college, 
even when they have similar test scores and grades as non-foster care 
students. They are significantly underrepresented in post-secondary 
programs, and they are more than twice as likely as other students to 
have dropped out of high school. For these reasons and others, it is 
critical that the HEA reauthorization pay special attention to 
addressing and correcting current deficiencies that limit access to a 
higher education for foster care youth.
    Because of their tumultuous lives and special needs, a large number 
of foster care youth fail to earn a high school diploma. So, first and 
foremost, the HEA reauthorization needs to specifically recognize the 
needs of these students and ensure that TRIO and GEAR-UP resources are 
appropriately targeted at this disadvantaged population. Neither of 
these programs currently recognizes foster care students as a priority 
population, and because these young people are often moved from one 
school system to another, services are often interrupted or 
discontinued. Further, the HEA should include a study, perhaps 
conducted by the General Accounting Office, to study how to expand the 
concept of ``ability to benefit'' from a higher education to increase 
the number and access of young people who are aging out of the foster 
care system who are struggling to develop the skills and education 
required to earn their own independent living.
    Foster care youth are also particularly disadvantaged in seeking 
student financial aid to help finance a college or postsecondary 
education. It would be very helpful, therefore, for the Advisory 
Committee on Student Financial Assistance to provide recommendations 
for expanding access to foster care youth to federal student financial 
aid. Such recommendations need to consider guidelines for high school 
counselors and social workers on how to better disseminate information 
on student financial aid to foster care students and how to improve the 
current financial aid system so that it is more sensitive to the unique 
and difficult ``home'' situation confronting foster care youth.
    I believe it would also be helpful if the subcommittee could 
recommend improved coordination between the Departments of Health and 
Human Services (HHS) and Education in advising high school counselors, 
TRIO program coordinators, financial aid counselors and other relevant 
officials about HHS Chafee Education Vouchers and how this program 
might benefit students in foster care in financing their college 
education.
    Education and the Workforce Committee Ranking Member George Miller 
has introduced legislation, H.R. 4003, the Foster Opportunities for 
Success Through Higher Education Reform (FOSTER Act), which provides 
straight-forward, cost-effective remedies for many of the issues raised 
in this letter. I urge the subcommittee to include its provisions in 
the HEA reauthorization in order to improve the ability of foster care 
youth to attend and succeed in higher education.
    More than most Members of Congress, you and your subcommittee 
colleagues know `how important a college education is for achieving 
life-time economic success and social stability. I hope you will keep 
these modest proposals in mind as your subcommittee deliberates on how 
to decrease the disparities that limit access to college, including 
those that limit access for foster care youth.

Sincerely,

James P. McGovern
Member of Congress
                                 ______
                                 
    [An Attachment, ``Higher Education Reform: Incorporating 
the Needs of Foster Youth, Casey Family Programs, the Casey 
Foundation'', has been retained in the Committee's official 
files.]
    Mr. Tierney. Thank you, Mr. Chairman.
    Dr. Lingenfelter, on your report when you talk about 
tuitions and the effect of states with them, did you study also 
fees? Do you count them as part of the tuition or as a separate 
matter, or take it into account at all on those?
    Dr. Lingenfelter. Our definition included all mandatory 
fees. It wouldn't include things like optional healthcare, or 
dorm fees. But any mandatory fees is included in that 
definition.
    Mr. Tierney. So, if you had an instance where tuition 
monies went back to the state government coffers, but fees were 
kept on campus. And as things went on you found campuses 
increasing the fees but letting tuition stay the same or go 
down, that is factored into your report?
    Dr. Lingenfelter. Yes. We considered both.
    Mr. Tierney. Good. Thank you.
    You talk, in the course of your testimony, about a higher 
education cost index. And I would like you, if you would, you 
offered to go into a little more into the question and answer, 
and I would like you to do that, if you would.
    How does that differ from inflationary figures, the regular 
cost-of-living index and things of that nature.
    Dr. Lingenfelter. The biggest expense higher education has 
is hiring talented people. And so, we have constructed the 
higher education cost adjustment using two factors. One the 
Federal Employment Cost Index for white-collar workers, for 75 
percent of the cost, which is what higher education spends on 
people. And 25 percent, the gross domestic product implicit 
price deflator, which is just sort of a general measure of 
inflation for non-personnel costs.
    Between 1990 and 2002, the CPI went up 40 percent. The 
current, the per capita income, in the country, went up 58 
percent, which shows that people were making more money and we 
had to pay more. The higher education cost adjustment figure we 
had went up 49 percent, which is basically substantially more 
than the CPI, but didn't reflect the total gains in per capita 
income during that very prosperous period. Just to give you an 
example of how it works.
    Mr. Tierney. In addition, to the costs for employment, did 
you also take into account the educational institution's need 
for security costs?
    Dr. Lingenfelter. We can't get to that level of detail, and 
so the answer is we did not.
    Mr. Tierney. All right.
    Dr. Lingenfelter. We basically, it's a very--it's a simple 
formula. It could be fine-tuned, but the answer is, no, we 
don't have any estimate of security costs.
    Mr. Tierney. But the reason that I press on that, and Dr. 
Law you may want to add on this, too.
    It seems to me that if we just use the regular inflation 
index, we are really putting institutions at a disadvantage, in 
that they have a number of other issues. The costs of 
employment being one, security being another, the high cost of 
energy being yet another, that may not be factored into the 
regular household index.
    Are we going to be able to have any type of a system where 
we give incentives or penalize institutions, unless we can get 
the right adjustment on that. If we just tied into the cost of 
living, I think that we are doing them a disservice. But can we 
actually do the work to determine what the differences are in 
the higher education level.
    Dr. Lingenfelter. I don't think that there is a perfect 
index out there, and I can't imagine how you would get one. I 
think this is the kind of issue that you just have to be 
debated.
    Mr. Tierney. Dr. Law, you have any feelings on that?
    Dr. Law. Mr. Tierney, I think you get to the sort of 
unintended consequences. As those of us at the top have to 
present a budget, what we do is we balance the interest.
    So we're back now to the mix of full-time permanent 
instructors, and part-time instructors. My costs will go up the 
same. My mix of those two critical factors will change based 
upon the available funds or projected funds.
    So you see what I'm saying, I don't know that we can get to 
that level and make a prediction. But I will tell you that's 
what's happening below the scene. In many cases when budgets 
get tight is we shift that mix.
    Mr. Tierney. OK. Dr. Lingenfelter, did you do any studies, 
as your group the State Higher Education Executive Officers, 
have you done any studies about the effect of costs on state 
institutions and the shift in full-time faculty to adjunct 
faculty?
    Dr. Lingenfelter. We have not done a study on that issue. I 
have read others, and I know that it is a national trend.
    Mr. Tierney. So it's more than just anecdotal itself, that 
we could easily document.
    Dr. Lingenfelter. I couldn't easily document it. But I know 
there are states out there that have documented that issue, 
yes.
    Mr. Tierney. Thank you. I noticed that my time is up. Thank 
you, Mr. Chairman.
    Chairman Boehner. Thank you.
    I get a little frustrated with this whole issue of 
graduation rates. I was on the school board for a number of 
years, and it was a problem at the high school level, because 
kids would leave and go to another school. And we didn't ever 
really know--really get a handle on dropout rate. And I don't 
know how you are measuring graduation rates.
    How do you measure graduation rate in your school, Dr. 
Nault?
    Dr. Nault. We measure it in a very straightforward fashion, 
did the student arrive in the fall? You know, then 6 years 
later did he or she graduate. So it is--
    Chairman Boehner. So you keep track on an individual 
student basis?
    Dr. Nault. Yes.
    Chairman Boehner. So, some way your track every student, 
and your report is, if they graduate within 6 years.
    Dr. Nault. Yes.
    Chairman Boehner. And in my case were it took 30 years, 
what happens?
    Dr. Nault. As long as you finish, that's the major thing.
    [Laughter.]
    Chairman Boehner. How do you keep track of your graduation 
rates, Dr. Law?
    Dr. Law. I need to say, I think we do it looking backwards, 
to say of those who graduated what was the pattern that got 
them to graduation. The student presents at the front door, and 
quite frankly, for many community college students, they simply 
don't--they have no familiarity or background. If you're on the 
school board, you understand this very well, as to what their 
hopes and dreams really are. They know they have to be in 
college. You know, I'm frustrated. The first thing that we say 
to them is do you want an AA or an AS degree? And what they 
want is to get their basics taken care of.
    Mr. Chairman, I am not trying to be flippant. It's very 
difficult at community colleges. I think that the only way that 
I can measure success is does the student pass every course 
therein. If they do that the pattern at the end will be much 
better. And I can bring resources to bear to make sure that a 
student succeeds in a course that he or she is in. I can 
recruit faculty, and I can recruit staff to help. But I will 
tell you trying to project with a graduation rate is, I don't 
know that I can do that. I can only do the sub-pieces to it.
    Chairman Boehner. Dr. Lingenfelter.
    Dr. Lingenfelter. I'm not at the institutional level. So I 
don't have a direct answer to your question.
    Chairman Boehner. But the schools that you--
    Dr. Lingenfelter. Basically--
    Chairman Boehner.--leaders of the schools that you 
represent?
    Dr. Lingenfelter. The schools that we represent are all 
over the country. And so anything that happens--what I would 
say is, would be the best way, would be if we had a system that 
would identify when a student entered school, and could tell 
what happened to them, no matter what institutions they went 
to, over a period of time in-state, would be one big step 
forward.
    We also have cross-state migration, which is one other 
issue that I would--I would settle if we could, within the 
states, find out what happened to a student, you know, and find 
out which institutions contributed to that student's success on 
the way. Because in many cases, the data we have from smaller 
studies is it's often three or four institutions.
    Chairman Boehner. I have a son who has just graduated from 
college, and he went to four institutions. And it took some 
years for him to do it, but he did it. And my mother took 30 
years.
    Dr. Lingenfelter. Well, I know that there are also students 
that come, especially in community college, who don't even plan 
on graduating. They come to take a class, or they come to learn 
about a subject. And they might do very well in that, and then 
move on. And they might be a great success, because that's what 
they wanted to achieve.
    So, I am not sure we should be beating ourselves with, 
switches, if we don't graduate every single student. I 
understand that if they don't graduate there is a financial 
loss to them, or if they do graduate there is a financial gain 
to them.
    But, you know, I'm not sure that everything in his life 
should be measured financially. It seems like that is what we 
do. But, I'm not sure that's the best, that's totally the best 
measurement.
    Chairman Boehner. I guess we could give everybody a number, 
kind of like, maybe a Social Security Number, and then we could 
track them by that. But I know that we have people that have 
great concerns about being tracked, though we are all tracked. 
And there are no, I guess, there really isn't much privacy 
around anymore.
    But, if that's a measurement, we could probably come to 
that. I guess there are lots of different ways, though, to 
measure effectiveness. But it really comes back to individual 
teachers, in individual classrooms. It's very interesting, the 
discussion that we've had today, of teachers in the classroom 
that are not teachers. They are grad students or somebody 
filling in. But the actual professors, I guess in many places, 
are not teaching.
    And I started to remembering back to my education, which 
was a long time ago. And about every class that I had was 
taught by the teacher of the class. I guess we've come a long 
ways, or maybe that's not what we want to do.
    I'm sure that in the community colleges, you're taught by 
the teachers.
    Dr. Law. And we pride ourselves on that.
    There is a benefit in many of our associate or workforce 
programs to have, to bring in practitioners to assist in the 
development of curriculum. But it becomes particularly 
problematic if those ratios fall, certainly below the levels 
that we're talking about, 65/35. You simply can't do the kind 
of quality-control that leads to stronger graduates and more 
well-placed employees.
    Chairman Boehner. Thank you. Ms. McCarthy.
    Mrs. McCarthy. Thank you, Mr. Chairman. And I thank the 
panel, it's been very interesting. And I think each and 
everyone of you, at one point, have talked about those students 
when they first go off to college, whether it's a community 
college or whether it's a 4-year university, on how many of 
them certainly are unprepared. Certainly those are coming from 
the minority schools.
    I have a school back in, unfortunately, I have several 
schools in my district that historically have never done well, 
to the point of where one school has actually been taken over 
by the state a number of years ago, and the school still did 
not improve.
    So, I basically am going to go a little bit differently, 
because I started working with a program called Project Grad. 
And it is a private-public institution where we ask our 
businesses, basically to get involved into the school, 
guarantee these kids a scholarship. But more importantly, give 
these kids hope. But more importantly than that, go to the 
basics.
    We started this program 3 years ago. I have gone on what 
they call, Walk for Success, meaning that I go door-to-door. I 
talked to the parents and say, they have to get involved and 
their student's education.
    But here's the great thing about it. The program has only 
been around for a few years, but Grad has been able to have 
135,000 students, this is nationwide, in 217 schools across the 
country. And the group of schools where the program has been in 
place the longest, the number of high school graduates has 
increased by 85 percent. And the number of students going on to 
college has increased by more than six times. But I think, what 
is impressive to me is these students have gone on to earn 
college degrees at a rate 89 percent above the national level.
    So what, hopefully, we can talk about college education, 
and we should talk about access for those, certainly those in 
the minority communities. But, I think that if we don't do a 
better job, and Project Grad to me is a program that does work, 
to prepare them so that when they get to you, you're not going 
to have to spend the first year or so on remedial classes. That 
is not, or shouldn't be, certainly, your area or expertise. I 
know a lot of that money goes there.
    I am hoping that as we go through this process here in this 
Committee, that we will be able to get money for Project Grad, 
because I think it is a program that does work. It's proven.
    And have any of you heard about the program, Project Grad? 
Nobody?
    Mr. Wiener. I certainly have heard of it. But don't know 
enough to--I don't think this is going to add to your--what you 
said about it.
    Mrs. McCarthy. I am just curious, because I think the 
higher education community should be getting involved in these 
programs. Because each and everyone of you, and I don't care 
where your college is, we are going to have a community that 
will have minorities in it, or underachieving schools.
    And I think our job, more importantly here, right now, is 
to make sure that these kids have an opportunity to get to 
college. Or whether it's a training school, or a career school, 
it doesn't matter. Because these are the future workers, and 
we're going to need every one of them. If we are going to have 
the competition that were going to be looking at, whether it's 
China, whether it's India, which by the way are spending more 
money on education that we are in this nation, and I think 
that's a disgrace. So, not that money means everything, but in 
certain communities, it's the only chance these kids have.
    And I hope that we can call out to the universities to 
support us on this Committee when we start looking for the 
money to help those kids. Thank you.
    Chairman Boehner. Thank you. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman.
    Mr. Tierney referred to some of the factors that might be 
considered in this discussion, if we are going to take a good 
look at it.
    But I think Mr. McKeon really got to the heart of it, which 
is the subject of today's hearing, is based on questionable 
numbers. We don't have good numbers on retention rates, it 
sounds to me.
    Let me ask you, Dr. Nault, if you know how this would be 
handled. I have a staff member, actually a very good young 
woman, who attended Miami a half a dozen years ago. And then 
left and reappeared at another Ohio institution.
    Now, it is my understanding, that most states actually 
don't have the capacity to track in-state student transfers. 
Does Ohio? Do you? Are we--I mean is this young woman lost to 
the system, or counted as a dropout for Miami?
    Dr. Nault. I can only speak for institution, and I am not 
fully knowledgeable about the entire Ohio system. I would say 
we do exit interviews to find out why a student leaves. But I 
think that you raised an important point, then they pretty much 
disappear to the institution. And I think that's lost 
information which is important, you know.
    Dr. Lingenfelter. I actually think that the State of Ohio 
can do that, but it is one of the--every state can't, they have 
a system that can do that.
    Mr. Holt. Is it true that most states cannot?
    Dr. Lingenfelter. Most cannot. But there is more, I mean, 
it's like five or ten can't. Yeah, so--
    Mr. Holt. So, among the other considerations, Dr. Nault, 
you in your prepared testimony pointed out that many of the 
freshman classes are taught by full-time faculty, 65 percent 
you say, which sounds good.
    But I'm sure there are a lot of other relevant statistics 
that you might have included in your testimony. For example, 
what is the percentage of this minority student population in 
the freshman year? For example, who are institution wide?
    Dr. Nault. At our campus it's about 10 percent.
    Mr. Holt. About 10 percent. And I think that is, you know, 
perhaps another factor.
    Well, let me ask all of you. Yes, some of us keep coming 
back to money. Because I know, anecdotally, that many of my 
constituents have gone in and out of college, and different 
colleges for financial reasons. And I wish we could get the 
numbers, meaningful numbers, so we could understand it better.
    But let me just ask you, in general, if we're going to, if 
the bill that we are considering here is intended to be budget 
neutral. Or, more specifically, if the bill that we are 
considering here would freeze the maximum Pell Grant for the 
next, not quite decade. What affects would that have on 
graduation rates as you look at things?
    Chairman Boehner. Will the gentleman yield?
    Mr. Holt. Yes.
    Chairman Boehner. The bill that we have under consideration 
would maintain the authorization level of the Pell at $5,800 
per year.
    Mr. Holt. Which is well above what is currently available--
    Chairman Boehner. The Chairman realizes that the current 
maximum Pell Grant award, as appropriated, is $4050.
    Mr. Holt. Yes.
    Chairman Boehner. As the gentleman well knows, I'm not into 
this game they gets played around here of authorizing 
ridiculous amounts of money, knowing that it is never going to 
be appropriated.
    And I don't think we are in jeopardy over the next 5 years 
of reaching the $5,800, considering that every $100 increase in 
the Pell Grant, maximum award, translates into a cost to the 
government of about $400 million.
    Now, I want to see the Pell Grant increased just like the 
gentleman does. But I don't want to mislead people into 
increasing the authorization level to six, or seven, or eight, 
I don't know, what is it that Mr. Andrews believed, $8,000.
    Mr. Holt. Well--
    Chairman Boehner. Knowing that we're never going to get 
there.
    Mr. Holt. Yes. Well, reclaiming my time, let me rephrase 
the question then to say that, if we were to continue what has 
been proposed for the coming year, which freezes the Pell Grant 
at the current level, the current average award, and not even 
the maximum authorized award, what would be the effect on the 
graduation rates?
    And we can just go right down the panel, although I suppose 
time has expired. So whoever wants to answer--
    Chairman Boehner. Well, the gentleman can continue.
    Mr. Holt.--is most welcome.
    Chairman Boehner. I used up some of your time. Go right 
ahead.
    Mr. Wiener. Well, again, I think it's a complex 
relationship of many factors that will affect graduation rates. 
I think it's clear that financial ability to pay right now 
affects many student's persistence and success in higher 
education.
    And I think it's reasonable to expect that costs and 
tuition will continue to increase at some pace. So if Pell 
doesn't keep pace with those other increases, then the 
likelihood that low-income students will be able to succeed in 
graduate from college becomes less likely.
    I would point out, the last time, Pell has been losing 
ground for a number of years. The last time it was appropriated 
at its fully authorized amount is 1979. And that it paid in 
much higher percentage of students' fixed costs, at that time.
    But there has been another development in both Federal, 
state and institution policy, which is to take increases in the 
investment and to target them more toward middle and upper 
middle class students, through tax credits and through merit-
based, as opposed to need-based aid.
    And I think it would behoove the Congress to look at the 
options for really redirecting that policy shift and making 
sure that new investments really do benefit the access and the 
success rates of low income students, as Pell grants do.
    Dr. Lingenfelter. I would comment that the research that I 
have seen is pretty clear that students who work more than 15 
hours a week are at risk of not graduating. So I think student 
aid is enormously important.
    I am not sure whether some students are working more hours 
than they should. Whether they need to or not. And I think we 
need to look at institutional practices to deal with that 
issue.
    But the states, the institutions, the Federal Government 
all have to take financial aid for needy students very 
seriously every want to get better educational attainment.
    Mr. Holt. And actually just for the record, since I didn't 
ask the question of Dr. Law. What is the minority population in 
your institution?
    Dr. Law. We are in the mid-30 percent of African-American 
population.
    Mr. Holt. Thank you. No further questions, Mr. Chairman.
    Chairman Boehner. Let me thank our witnesses for your 
willingness to come in and testify. And to those of you in the 
audience who have come in to show your interest. I think this 
is just another step in the overall effort to come to some 
agreement on the Higher Education Act reauthorization.
    Unfortunately, the time allotted to us this year, 
considering everything else that is going on, is not as long as 
it could be, or should be. But I do think that these hearings 
are serving a very useful purpose in terms of getting us 
prepared to move quickly on this bill early next year.
    And so with that, let me thank all of you, and this hearing 
is adjourned.
    [Whereupon, at 12:38 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]

Statement of Hon. George Miller, Ranking Member, Committee on Education 
                           and the Workforce

    Thank you Mr. Chairman. I am pleased to join you at today's hearing 
on the Higher Education Act reauthorization.
    Today's hearing focuses on the College Access and Opportunity Act 
(H.R. 4283) and college graduation rates. Increasing college 
persistence and completion is crucial to our economic success, national 
security and the country's overall well-being.
    Unfortunately, several key provisions in H.R. 4283 will actually 
make it more difficult for students to graduate from college--
particularly low-income and minority students.
    H.R. 4283 freezes the current maximum authorized Pell Grant award 
at $5,800 through 2011 despite the fact that the 2002-03 maximum Pell 
award was worth nearly $700 less, in real terms, than it was 30 years 
ago;
    The Republican's higher education bill eliminates a student's 
ability to choose to lock in a low-fixed interest rate on his or her 
student loans, forcing the typical student borrower to pay $5,500 more 
for his college loans.
    H.R. 4283 also raises interest rates on all student loans, pushing 
hundreds of dollars in additional costs onto student borrowers.
    H.R. 4283 also eliminates the `base guarantee' in the campus based 
aid programs without significantly increasing funding for work-study, 
supplemental educational opportunity grants and Perkins loans.
    As a result, instead of increasing overall access the bill merely 
shifts college aid from one student with financial need to another 
student with need.
    In addition, the bill fails to provide any meaningful relief from 
rising tuition.
    According to a recent report from the State Higher Education 
Executive Officers, net tuition at public colleges has risen by almost 
30 percent since 1991, largely due to cuts in state spending for higher 
education.
    Rather than ease the burden of growing debt, long work hours and 
rising tuition, these provisions fly in the face of numerous studies 
which show that the costs of college are a key barrier towards entry 
and completion of college for millions of students.
    Today, 63 percent of students who begin college as full-time 
freshman receive their bachelor's degree after six years.
    Graduation rates for low-income and minority students are even 
worse: only 54 percent of low-income, and less than half of Latino and 
African-American students earn their bachelor's degrees within six 
years.
    These rates do not include the scores of students who never even 
make it college, due to financial barriers and a lack of preparation.
    In addition to have access to adequate financial aid, an integral 
component to college success and completion is preparation in the K-12 
years.
    Unfortunately, just as critical services and programs are being put 
in place and educators are being asked to do more than ever before, the 
Bush Administration and Congressional Republicans have broken their 
promise to fully fund No Child Left Behind.
    As a result, states, school districts and students do not have the 
resources that they need to significantly increase their performance 
and to increase high school graduation rates--despite that public high 
school graduation rates for Latinos and African-Americans are just 
above 50 percent.
    Both the Republican's failure to fully fund No Child Left Behind 
and H.R. 4283 will actually make it harder for millions of students to 
successfully graduate from high school and college.
    In addition to resources, we must also address limitations of the 
current federal graduation tracking system--which largely fails to 
include part-time and transfer students.
    As a result, we don't have accurate graduation data for a 
significant portion of college students.
    I support increasing accountability and using innovation solutions 
to boost college graduation rates.
    However, we must ensure that colleges, states and students have the 
resources necessary to meet increased standards-otherwise our efforts 
to close the achievement gap and raise graduation rates will amount to 
empty promises.
    Unfortunately, the College Access and Opportunity Act won't improve 
college graduation rates.
    Instead, it makes college more expensive for millions of low and 
middle-income students and their families just as they continue to 
struggle to cover rising college costs.
    We need to increase college graduation rates and accountability for 
student persistence; however we can't afford to take the path of this 
bill, as it won't boost graduation rates.
    I urge my colleagues to reject this bill as it is presently 
drafted.
                                 ______
                                 

 Statement of Hon. Charlie Norwood, a Representative in Congress from 
                          the State of Georgia

    Mr. Chairman I thank you for holding today's hearing to examine the 
issues regarding college graduation rates and the recent report, ``A 
Matter of Degrees: Improving Graduation Rates in Four Year Colleges and 
Universities,'' conducted by the Education Trust. As this Committee 
continues to develop policy to strengthen education accountability at 
every level, and as we continue to debate the merits of H.R. 4283 in 
reauthorizing the Higher Education Act, it is clear that Congress must 
take a closer look at the nitty-gritty details regarding graduation and 
higher education.
    After all, we all know that more students are seeking out higher 
education opportunities every year (including a 66% increase at two and 
four year institutions since 1975); but too many of these students fall 
through the cracks and fail to stay the course. In fact, a recent 
report conducted by the Education Trust in May of 2004 found that only 
63% of American students enrolled at four year universities graduate 
within six years. And while many of my colleagues are probably stunned 
to learn that it takes six years for nearly 2/3 of college students to 
graduate, it is more shocking to hear that 37% of students don't even 
graduate at all!
    Yet the bad news doesn't stop there: minority and low income 
students are particularly at risk to fall through the cracks. According 
to the Education Trust, ``only 46% of African American, 47% of Latino 
and 54% of low-income/full-time freshmen are graduating within six 
years.'' Mr. Chairman, these figures are unacceptable. Too many of 
these students are the first in their family to attend an institution 
of higher learning, and too many come from economically under-developed 
regions of the country. In short, they are the kids that will most 
benefit from completing their college education and receiving a degree.
    As this Committee continues to consider the College Access and 
Opportunity Act it is imperative that Members do not ignore these 
facts. Mr. Chairman, we must face the music, realize that our policies 
of the past are not serving the best interests of American students and 
refocus federal higher education policy to boost these dismal 
graduation rates.
    If, as the State Higher Education Executive Officers' (SHEEO) 
report entitled ``State Higher Education Finance: fiscal year 2003'' is 
correct, the federal government and our nation's state governments have 
continued to invest substantial taxpayer dollars in support of higher 
education even in the worst of financial times. Despite the fact that 
enrollment continues to rise and the strain on state budgets is tighter 
than ever before, government commitment to higher education remains 
steadfast. But what do we have to show for this investment? Why have 
graduation rates failed to keep pace?
    Mr. Chairman, Members of this Committee need answers to these very 
poignant questions. While there are certainly institutions throughout 
the country that are maintaining or even improving upon an already high 
standard when it comes to graduation rates--and I take particular pride 
in the good work that universities in my home state of Georgia have 
accomplished in this regard--the overall picture is very disturbing. 
Congress must address this basic breakdown in accountability and 
achievement before proceeding ahead with the reauthorization of the 
Higher Education Act, and I look forward to hearing our witness' 
thoughts on how Congress can achieve this worthy goal.
    I thank you again Mr. Chairman for your attention to this matter, 
and respectfully yield back the remainder of my time.
                                 ______
                                 

Statement of Hon. Jon C. Porter, a Representative in Congress from the 
                            State of Nevada

    Good Morning, Mr. Chairman. Thank you for calling this hearing on 
H.R. 4283, the College Access and Opportunity Act of 2004. As we 
continue the process of reauthorizing the Higher Education Act with a 
focus on access and accountability, the measure of achievement is of 
the highest importance. I thank all of our witnesses today, and look 
forward to their comments and insight into this important aspect of our 
federal higher education policy.
    The reforms that we seek to make to this policy highlight the need 
for access and accountability. We must not forget the importance of 
student achievement when tackling these issues. Discrepancies in 
achievement between different economic and ethnic groups require that 
we examine closely the data collected since 1990 and reevaluate the 
means with which we encourage student achievement in traditional four 
year colleges.
    We must also seek to incorporate the growing number of non-
traditional students in our assessments of success in higher education. 
As more students seek out post-secondary education while still 
remaining in the workforce, the Graduation Rate Survey, one of the most 
important indicators of a schools' success, should reflect the current 
student population.
    In southern Nevada, we have experienced strong job creation over 
the past year. This dictates that a larger portion of our population is 
engaged in the workforce. This does not, however, change the percentage 
of the population seeking higher education. By providing access to more 
flexible post-secondary schools, we can create a better educated, more 
productive workforce in Las Vegas and its surroundings.
    As the federal government spends money on post-secondary education, 
it requires that centers of learning be accountable for the achievement 
of their students. Incorporating a broader spectrum of schools in this 
accountability equation will allow for greater federal aid for a 
broader spectrum of the student population. Through examining our 
current accountability standards, I hope that we can create a balanced 
and encompassing standard that will take into account the realities of 
our dynamic student body and modern workforce.
    Again, Mr. Chairman, I thank you for providing the opportunity to 
discuss and explore this important aspect of the federal government's 
higher education policy. I also thank and welcome our panel of 
witnesses and look forward to their testimony.
                                 ______
                                 

                    Statement of Steven J. Uhlfelder

    I'm pleased to have the opportunity to share with the committee the 
actions taken by Florida and the State University System on some vital 
policy challenges facing higher education.
    The State University System of Florida has taken concrete steps to 
address improvements in the important areas of graduation and 
progression, and in student learning outcomes. Florida hopes to become 
a leader in these important areas, because, unlike other states, 
Florida has a tremendous access challenge--we must turn away qualified 
students from our universities every year.
    Florida's initiatives include the following:

Stipulation of Credit Hours to Degree
    The State University System has reduced all baccalaureate programs 
to 120 credit hours to degree, with exceptions granted only by the 
system's governing body, the Florida Board of Governors. Significantly, 
this reduction included all teacher-preparation programs, many of which 
had increased haphazardly either through the desires of faculty or 
through increased requirements set by the Florida Legislature via the 
Florida Department of Education.
    In all, hundreds of programs were reduced throughout the State 
University System for a total reduction of more than 1,800 credit 
hours. A result of this process was an honest and thoughtful review of 
all curricula by faculty. In the past nine years, Exceptions to the 
120-credit-hour limitation are few, as Florida is rigorous in 
maintaining this standard of efficiency.

Standardization of Prerequisites to the Major
    Florida has stipulated that prerequisite coursework taken in the 
first two years of the postsecondary experience must be standardized 
per discipline across Florida's universities and 28 community colleges. 
Therefore, a student who intended to major in, for example, Chemistry, 
is assured that courses taken as prerequisites, irrespective of the 
institution, meet the requirements. This is a powerful tool in a state 
such as Florida, which relies on a strong two-plus-two model of 
transfer from lower-level community colleges to upper-division 
universities.

Standardization of General Education Hours
    Florida has stipulated that General Education must be a maximum of 
36 credit hours at all state universities and community colleges. This 
resulted in a reduction of credit hours associated with General 
Education at many institutions. Institutions were required by law to 
provide coursework in five traditional subject-areas; the State did not 
attempt to dictate the General Education curriculum.

Recent Efforts in Accountability and Performance Funding
    The Florida Board of Governors has adopted a new Accountability and 
Performance model. The model is predicated on these principles:
    1.  The Board will focus on eight of the most meaningful measures 
as opposed to the universe of potential measures.
    2.  The Board will provide recommendations to the Legislature, per 
its direction, as to how up to 10 percent of university funding can be 
tied to these measures.
    3.  The measures will be a combination of proficiency indicators 
and quality-assurance indicators, weighted for priority and balance. 
Special attention will be paid to student learning.
    The Board of Governors measures include indicators of:
    <bullet>  Degree productivity at all levels.
    <bullet>  Degree productivity in specific academic areas of 
critical importance to Florida.
    <bullet>  Higher education access to underserved populations.
    <bullet>  Graduation rates.
    <bullet>  Passage rates on critical licensure examinations.
    <bullet>  Research productivity.
    <bullet>  Creation of Academic Learning Compacts.

Recent Efforts in Student Learning Outcomes: Academic Learning Compacts
    This year, the Board of Governors recommended that our state 
universities adopt Academic Learning Compacts for every baccalaureate 
degree. In this way, our universities can establish simple, clear 
expectations and determine whether students meet standards with respect 
to content-area knowledge, critical thinking and communication skills 
before graduation.
    The 11 institutions of the State University System are now 
developing the Academic Learning Compacts, following Board of Governors 
guidelines. Under this model, each student will know his or her 
performance goals and, from the start of their first semesters, can 
begin to build the catalog of knowledge needed to fulfill the 
requirements.
    Through the Academic Learning Compacts, faculty members in each 
department will be able to better articulate their program's goals. 
They, too, will be held accountable if their students, after four 
years' study, fail to meet the fair and honest criteria for success 
spelled out in the compacts that they helped devise.
    Student performance will be judged in a variety of ways. Assessment 
measures could include essays, portfolios, internship assessments, 
licensure exams, employer surveys, graduate-school admission exams, 
senior projects or other methods. Each university, and each department, 
will determine what measures best reflect their fields of study. With 
the Academic Learning Compacts, this is easily accomplished--one size 
does not have to fit all.
    As you can see, accountability and performance outcomes are 
important to Florida and its colleges and universities. Our state is 
working hard to broaden opportunities to a college degree by making our 
institutions as productive and efficient as possible. The Florida Board 
of Governors is determined to continue this progress.
    I thank you for this opportunity to relate these achievements to 
the committee, and I look forward to your comments.
    Steven J. Uhlfelder, is a member of the Board of Governors for the 
Florida University System (appointed by Governor Jeb Bush) and former 
Chair of the Florida Board of Regents (appointed by Governor Lawton 
Chiles).

                                 <all>

</pre></body></html>
